<html>
<title> - 1890 LAND-GRANT INSTITUTIONS: RECRUITMENT CHALLENGES AND SCHOLARSHIP OPPORTUNITIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                     1890 LAND-GRANT INSTITUTIONS:
                       RECRUITMENT CHALLENGES AND
                       SCHOLARSHIP OPPORTUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 7, 2016
                               __________

                           Serial No. 114-59


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov







                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-979 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


























                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                 Anne Simmons, Minority Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Adams, Hon. Alma S., a Representative in Congress from North 
  Carolina, opening statement....................................    23
Allen, Hon. Rick W., a Representative in Congress from Georgia, 
  opening statement..............................................    25
Ashford, Hon. Brad, a Representative in Congress from Nebraska, 
  opening statement..............................................    22
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     3
Graham, Hon. Gwen, a Representative in Congress from Florida, 
  opening statement..............................................    25
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     4
Scott, Hon. Austin, a Representative in Congress from Georgia, 
  opening statement..............................................    24
Scott, Hon. David, a Representative in Congress from Georgia.....     4
    Submitted legislation........................................     7

                               Witnesses

Cleaver, Hon. Emanuel, a Representative in Congress from Missouri    19
Cramer, Hon. Kevin, a Representative in Congress from North 
  Dakota.........................................................    20
    Prepared statement...........................................    21
Bell, Ph.D., Juliette B., President, University of Maryland 
  Eastern Shore; Outgoing Chair, Council of 1890's Executive 
  Committee, Princess Anne, MD...................................    26
    Prepared statement...........................................    27
Jackson-Hammond, Ed.D, Cynthia, President, Central State 
  University, Wilberforce, OH....................................    30
    Prepared statement...........................................    31
Jones, Ph.D., Paul A., President, Fort Valley State University, 
  Fort Valley, GA................................................    33
    Prepared statement...........................................    34
Robinson, Ph.D., Larry, Interim President, Florida Agricultural 
  and Mechanical University, Tallahassee, FL.....................    49
 
                     1890 LAND-GRANT INSTITUTIONS:
                       RECRUITMENT CHALLENGES AND
                       SCHOLARSHIP OPPORTUNITIES

                              ----------                              


                      WEDNESDAY, DECEMBER 7, 2016

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300, Longworth House Office Building, Hon. K. Michael Conaway 
[Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Lucas, King, 
Gibbs, Austin Scott of Georgia, Benishek, LaMalfa, Davis, Yoho, 
Allen, Rouzer, Abraham, Moolenaar, Kelly, Peterson, David Scott 
of Georgia, Walz, Fudge, DelBene, Lujan Grisham, Kuster, Nolan, 
Plaskett, Adams, Graham, and Ashford.
    Staff present: Bart Fischer, Mollie Wilken, Mykel Wedig, 
Stephanie Addison, Anne Simmons, Evan Jurkovich, Keith Jones, 
Matthew MacKenzie, Nicole Scott, and Carly Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Good morning. Before we start, I want to ask 
David Scott to open us with a prayer. David.
    Mr. David Scott of Georgia. Dear Heavenly Father, we come 
before your throne of grace to first of all say thank you. We 
thank you for so much. So many blessings you bestow upon us 
that we don't even know. We thank you for that. We thank you 
for our health and our strength. And dear Heavenly Father, we 
ask your special blessing to anoint this Committee room this 
morning, that you would usher in your Holy Spirit into the 
hearts and minds of everyone sitting in this room, that we 
understand the full responsibility to provide for our African 
American community the true opportunity, the financial support 
that we need for scholarships. This is what we pray for this 
morning, dear God.
    We thank you for this mindful Committee. We thank you for 
the Chairman with the insight and the compassion to have this 
hearing. And we just ask in your holy name that we be 
successful in doing your work, in doing your will, which is to 
provide these scholarships for these African American students, 
for these African American colleges that were founded through 
the grace coming out of the Civil War. We made it through.
    And dear God, only in your kindness, as you give us your 
loving-kindness, please spread your loving-kindness today in 
this Agriculture Committee room, that we be successful in this 
journey to take the first step here today to award these 
colleges $1 million each year to help our African American 
students. And this we pray and we thank you for. In the name of 
your son Jesus Christ we say amen.
    The Chairman. Thank you, David.
    This hearing of the Committee on Agriculture entitled, 1890 
Land-Grant Institutions: Recruitment Challenges and Scholarship 
Opportunities, will come to order.
    Good morning. Today, we will discuss one of the Committee's 
longstanding areas of jurisdiction, agricultural research 
universities. More specifically, we will hear from our 1890s 
institutions, the land-grant colleges and universities for 
African American students established pursuant to the Second 
Morrill Act of 1890.
    Last July, we had a hearing to celebrate the 125th 
anniversary of the 1890 universities and the contributions they 
have made and they continue to make to the agriculture industry 
in the United States. Today, we will build on that discussion 
and explore challenges that the 1890s face in recruiting 
students to careers in agriculture. There is currently an unmet 
demand for highly skilled jobs within the agricultural 
industry. The 1890s have recognized the opportunity that such a 
gap presents for graduates with degrees in agricultural 
studies, and they are focusing their efforts on generating 
greater interest in agricultural programs within their 
respective schools.
    Today, we will start by hearing from a panel of our fellow 
Congressmen who have sponsored H.R. 6020, Funding for Student 
Scholarships for the 1890s Land-Grant African-American Colleges 
and Universities Act. I am looking forward to the acronym on 
that one.
    Now, as my colleagues will explain, this bill allocates 
scholarships to 1890 universities for students interested in 
food and agricultural sciences.
    In our second panel, the Committee will hear from the 
Presidents of three of those schools about the challenges they 
face in recruiting African American students to agricultural 
areas of study, as well as their suggestions for moving 
forward.
    While only three of the 1890s Presidents will testify this 
morning, we are fortunate that Presidents and/or their 
representatives from several of the other 1890 schools are in 
attendance today, and we would like to recognize them at this 
time.
    In addition to our witnesses, we have Dr. Makola Abdullah, 
President of Virginia State University.
    Mr. Abdullah. Thank you very much.
    The Chairman. Okay, thank you. Dr. Anthony Jenkins, 
President of West Virginia State University.
    Dr. Larry Robinson, interim President for Florida A&M 
University. Dr. Robinson, glad you are here.
    Dr. Kirk Pomper, Director of Land-Grant Programs in 
Kentucky State University.
    Dr. Albert Essel, Director of Cooperative Research and 1890 
Administrator, Lincoln University. Good morning, sir.
    Zachary Faison, General Counsel and Vice President for 
External Affairs, Tuskegee University. Zachary, good morning.
    Dr. Antoine Alston, Associate Dean for the College of 
Agriculture and Environmental Sciences, North Carolina A&T.
    And finally, Mr. Tony Wells, previous President of the 
Alumni Association for Tennessee State University. Tony, good 
to have you with us this morning.
    If there are others in the audience who we haven't 
mentioned, please know you are welcome. We are glad you are 
here. We value your contribution.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    Good morning.
    Today we will discuss one of the Committee's longest standing areas 
of jurisdiction--agricultural research universities. More specifically, 
we will hear from our ``1890s'' institutions--the land-grant colleges 
and universities for African American students established pursuant to 
the Second Morrill Act of 1890.
    Last July, we held a hearing to celebrate the 125th anniversary of 
1890 universities and the contributions they have made and continue to 
make to the agricultural industry in the United States. Today, we will 
build on that discussion and explore challenges that the 1890s face in 
recruiting students to careers in agriculture.
    There is currently an unmet demand for highly-skilled jobs within 
the agricultural industry. The 1890s have recognized the opportunity 
that such a gap presents for graduates with degrees in agricultural 
studies, and they are focusing efforts on generating greater interest 
in the agricultural programs within their respective schools.
    Today, we will start by hearing from a panel of my fellow 
Congressmen who have sponsored H.R. 6020, the Funding for Student 
Scholarships for the 1890 Land-Grant African-American Colleges and 
Universities Act. As my colleagues will explain, this bill would 
allocate scholarships to 1890 universities for students interested in 
food and agricultural sciences.
    For our second panel, the Committee will hear from the Presidents 
of three of those schools about the challenges they have faced in 
recruiting African American students to agricultural areas of study, as 
well as their suggestions for moving forward.
    While only three of the 1890s Presidents will testify this morning, 
we are fortunate that Presidents (or their representatives) from 
several of the other 1890 universities are in attendance today, and I 
would like to recognize them at this time:
    In addition to our witnesses, we have joining us:

    Dr. Makola Abdullah, President of Virginia State University;
    Dr. Anthony Jenkins, President of West Virginia State University;
    Dr. Larry Robinson, Interim President of Florida A&M University;
    Dr. Kirk Pomper, Director of Land Grant Programs at Kentucky State 
            University;
    Dr. Albert Essel, Director of Cooperative Research & 1890 
            Administrator, Lincoln University;
    Zachary Faison, General Counsel and Vice President for External 
            Affairs, Tuskegee University;
    Dr. Antoine Alston, Associate Dean for the College of Agriculture 
            and Environmental Sciences, North Carolina A&T State 
            University; and finally
    Mr. Tony Wells, Previous President of the Alumni Association, 
            Tennessee State University.

    If there are others in the audience that I didn't mention by name, 
please know that the Committee values your contributions.
    It is now my pleasure to recognize the Ranking Member for any 
comments he wishes to make.

    The Chairman. And now it is my pleasure to recognize the 
Ranking Member for any comments he has.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. And welcome, 
everybody, to today's Agriculture Committee hearing.
    As the Chairman said, today's hearing is focused on 
recruitment challenges and scholarship opportunities at 1890 
land-grant universities. We are also going to be learning more 
about legislation sponsored by Congressman David Scott, H.R. 
6020, to make more scholarships available to students attending 
these schools. Our land-grant universities play an important 
role in agricultural research, extension, and educational 
programs, and I am looking forward to hearing today's 
testimony.
    I want to welcome the 1890 Presidents who are joining us 
today and some of whom were here last summer when we met to 
recognize the 125th anniversary of the Second Morrill Act.
    Before I yield back, Mr. Chairman, this is our final 
hearing of this Congress, hopefully.
    The Chairman. Yes.
    Mr. Peterson. And I believe that we have held more than 80 
hearings, which is a record. As we wrap up here, I want to just 
thank all the Members for their hard work and the Chairman for 
his leadership and service to the Committee. And, with that, I 
yield back.
    The Chairman. Well, I thank the Ranking Member for those 
kind comments at the end. We have had a great 114th Congress 
and most of us are looking forward to a great 115th Congress. 
We may have a few folks that move on to committees of lesser 
importance throughout the Congress as we move forward, but it 
has been a great pleasure.
    So, with that, the chair will request other Members submit 
their opening statements for the record, so the witnesses may 
begin their testimony and to assure there is ample time for 
questions.
    I would like to welcome our first panel, the Honorable 
David Scott, Member of Congress from Georgia, Member of the 
Committee; the Honorable Emanuel Cleaver, Member of Congress 
from Missouri; and the Honorable Kevin Cramer, the only Member 
of Congress from North Dakota.
    Congressman Scott, begin when you are ready, sir.

  STATEMENT OF HON. DAVID SCOTT, A REPRESENTATIVE IN CONGRESS 
                          FROM GEORGIA

    Mr. David Scott of Georgia. Well, thank you very much, Mr. 
Chairman. First of all, I want to thank you, Chairman Conaway, 
for your dedication and for your understanding, and for your 
longtime support of the 1890s African American colleges and 
universities. Thank you so much for this hearing.
    I also want to thank Speaker Paul Ryan, who was very 
helpful to us in getting this moving.
    And I certainly want to thank our Ranking Member Peterson 
for the great job he has done over the years. He has been a 
champion of the 1890s.
    I want to thank my cosponsors too, if I may, Mr. Chairman. 
Representative Kevin Cramer, my dear good friend. We have been 
on this journey now for a couple of years in getting this bill 
moving and our bill to provide training and job training for 
African American young men as we move to rebuild the crumbling 
infrastructure. I want to thank Ms. Marcia L. Fudge, our former 
Chairwoman of the Congressional Black Caucus, who has been a 
stalwart supporter of our African American schools; Brad 
Ashford from Nebraska, who is a great sponsor; Mrs. Mia Love, 
another one of our Republican cosponsors; Ms. Gwen Graham; Ms. 
Alma S. Adams; Mr. Pete Sessions, who is the Chairman of our 
Rules Committee; and my good friend Reverend Emanuel Cleaver, 
who is an extraordinary champion. Thank you all for this. We 
appreciate it.
    Thank you for your staff work on this, Mr. Chairman, your 
staff, and my hardworking staff of Ashley and the team back in 
my office.
    This is a monumental moment in the history of our African 
American colleges and universities, ladies and gentlemen. We 
humbly come before this Committee to plead our case that we 
establish the grants in this bill that will enable the African 
American land-grant universities to be able to provide $1 
million each year for scholarships for our African American 
students. The caveat is that the African American students will 
then commit to careers in this burgeoning field of business 
agriculture. The most important industry in the world is 
agriculture. It is the food we eat. It is the clothes we wear. 
It is our energy. It is high finance. It is derivatives. It is 
risk management. It is commodities and futures trading abroad, 
which makes just the derivatives sector a $800 trillion piece 
of the world's economy. And we want this opportunity for our 
students.
    I want to say one other thing. There was a great 
conversation that was held by two great Americans. One, 
President Abraham Lincoln; the other, General Robert E. Lee. 
The Civil War had ended. And they had this conversation right 
on these hallowed grounds. And as they looked over the expanse 
and looked south to Virginia, Mr. Lincoln said to General Lee, 
``It is not incumbent for us to complete this task,'' and 
before he could finish that, General Lee finished that sentence 
by saying, ``But, Mr. President Lincoln, neither are we free to 
desist from doing all we possibly can.''
    That is what is at our place today. And, Mr. Chairman, I 
want us to have this opportunity. There is no greater need in 
the African American community, as in all communities, than 
economics, jobs, financial security, and the education and job 
training that goes along with them. That is why all of us 
sponsors have sponsored a companion bill to provide job 
training targeted for the 18-39, the hardest hit group, to help 
build the crumbling infrastructure. That sits in another 
committee, but today this is the education piece.
    And, Mr. Chairman, this also gives us an opportunity. I 
received some notice that President-elect Donald Trump is 
interested in what we are doing with these two bills. I want us 
to have an opportunity, give us this opportunity, because in 
these two bills it is the Secretary of Labor that will be the 
supervisory agency for the jobs bill, but this bill will come 
under the new Secretary of Agriculture. It is important that we 
engage them.
    And I take President Trump, and as many of you know or some 
of you may not know, he and I finished from the great Wharton 
School of Finance at the University of Pennsylvania together. I 
ask for an opportunity to allow us to work, and maybe we bring 
some of that Wharton School of Business magic to this. I 
appreciate the opportunity to do that and hope you will pass 
this bill out. Thank you.
    [H.R. 6020 and H.R. 6021 follow:]

 H.R. 6020, Funding for Student Scholarships for the 1890s Land-Grant 
             African-American Colleges and Universities Act
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
             
             
   H.R. 6021, Jobs, On-the-Job `Earn While You Learn' Training, and 
           Apprenticeships for African-American Young Men Act
           
           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
           
           
 
    The Chairman. The gentleman yields back.
    Reverend Cleaver.

STATEMENT OF HON. EMANUEL CLEAVER, A REPRESENTATIVE IN CONGRESS 
                         FROM MISSOURI

    Mr. Cleaver. Thank you, Mr. Chairman and Ranking Member 
Peterson, for having this hearing. And I would thank my 
colleague David Scott for the vision that he has. You will hear 
from my esteemed colleagues, the original sponsors of H.R. 
6020, on the importance of this legislation and its benefits.
    I will just say that this bill is critical if we are to 
increase the number of African American young people seeking 
careers in agriculture and agribusiness. When I look back, I 
happen to have known both of my great-grandfathers. On the 
Cleaver side, they tend to live into their nineties. My father 
just reached 94. I had the chance to know them. And on both 
sides, they were farmers. Henry Barton and the Reverend Noah 
Albert Cleaver, my great-grandfathers. And my great-uncle was 
the head of the agricultural department at Prairie View A&M 
University.
    There is an 1890 university in my state, Lincoln 
University, and we are very proud of it, as I am proud to be a 
Prairie View A&M graduate, in fact. When my nephew graduated 2 
years ago, he made the 15th Cleaver to graduate from Prairie 
View. And it is a school that has produced two Members of 
Congress. Some of you probably served with Craig Washington, 
who filled the seat that is now held by Sheila Jackson Lee of 
Houston. And many people know of the Gang of Three in New York, 
one of them Percy Sutton. You see his name almost always 
associated with Congressman Charlie Rangel. Percy Sutton is a 
Prairie View graduate, as is Mr. T. Mr. T was a freshman when I 
was a senior. And Cecil Cooper who, for the baseball fans, 
played for the Red Sox. And, of course, Otis Taylor and Ken 
Houston and Jim Kearney and many others were NFL standouts.
    Lincoln University in Jefferson City was established at the 
end of the Civil War by members of the 62nd United States 
Colored Infantry. It was created to educate freed African 
Americans. The school was founded on the idea of combining 
study and labor. In 1890, Lincoln became a land-grant 
institution, enabling the university to offer industrial and 
agricultural courses. As one of Missouri's two historically 
black colleges and universities, Lincoln University has 
continued to open its doors to a diverse population.
    You may be surprised to learn that my close friend, Blaine 
Luetkemeyer, is a graduate of an HBCU, Lincoln University. And 
Prairie View A&M University, the first state-supported college 
in Texas for African Americans, was established during the 
reconstruction period after the Civil War. It is the second 
oldest public institution of higher education in Texas.
    Thank you, Mr. Chairman and Ranking Member, and especially 
to my colleague and friend David Scott.
    The Chairman. I thank the gentleman. Do I have it correct 
that both you and David have degrees from land-grant schools?
    Mr. Cleaver. Yes. I am a graduate of Prairie View.
    The Chairman. And David?
    Mr. David Scott of Georgia. And I am a graduate of Florida 
A&M University.
    The Chairman. All right.
    Mr. David Scott of Georgia. Go Rattlers.
    The Chairman. Mr. Cramer, can you top that, sir?

 STATEMENT OF HON. KEVIN CRAMER, A REPRESENTATIVE IN CONGRESS 
                       FROM NORTH DAKOTA

    Mr. Cramer. No, Mr. Chairman. I am getting a strong sense 
of what it is like to be in the minority, however.
    Thank you, Mr. Chairman, Ranking Member Peterson, and 
Members of the Committee, for this wonderful opportunity to 
provide testimony on this important bill.
    And I am sure Wharton is fine, but it is clearly no Florida 
A&M, so I am glad we got that out of the way. I wouldn't fault 
any of you for being curious right now about how a white 
Lutheran Republican from Fargo, North Dakota, gets hooked up 
with a black liberal Democrat from Georgia, but it has been a 
great pleasure, I'll tell you that.
    The seeds of this bill that we are discussing were planted 
at the beginning of this Congress, 2 years ago in January, when 
I introduced H.R. 3, the Keystone XL Pipeline Act, as its lead 
cosponsor. And Congressman Scott, and I am not one bit shy 
about saying, changed my heart when he took to the floor to 
support that bill, to the point where this very conservative 
capitalist Republican went to his office to learn more, to 
learn more about his vision for how we change America, about 
how we can use economic bills and economic solutions to solve 
social problems and crises. And I thought to myself, man, if I 
believe that a rising tide lifts all boats, then I need to hang 
around David Scott more, because he taught me that there are 
legitimate strategic ways to do that. And I am so far off my 
script now, I am going to have a hard time getting down here.
    But what he taught me, what he showed me is that, with a 
high unemployment rate among young black men, and nationwide it 
is about 40 percent, in many places it is 50 percent or higher, 
that with minor adjustments to policy, even outside of policy, 
David and I, ever since we have been working on policy 
together, we have been talking to companies and labor unions 
and trade organizations who are very enthused about being 
strategic, about how we match the workforce demands with the 
availability of a workforce and our education system, to get it 
all back in sync and change for the better. By the way, I want 
to stress, it is not just for economic benefit, not just for 
job creation, but to heal our land, for the benefit not just of 
our country but of this institution that needs help healing as 
well.
    And so I am enthused, David, to stand here with you. You 
had me at the prayer, by the way. You had me at the prayer.
    So our final amendment wasn't included in the Keystone XL 
bill, the amendment that would target enthusiasm for job 
training, but the concept lives on. And hopefully yet, as we 
start working on a major build-out of our infrastructure of 
this country, as we strive to feed a growing population in the 
world with the same number of acres or less, we need smart 
people. We need smart people who learn from the universities 
represented on the next panel to help us grow more food in a 
responsible way, to train up the engineers, to train up the 
soil agronomists, and train up the horticulturists and all 
those smart people that help our farmers do what they do so 
well, and that is feed a hungry world. And if in the process we 
serve a testimony to what people can do working together, all 
the more great, you see, to me, all the more great.
    And so, Mr. Chairman, I am absolutely convinced that the 
concepts promoted in this legislation and in the companion 
legislation that David talked about earlier to provide targeted 
training and, really, encouragement more than anything, can 
change a country and can change this body and perhaps could 
change this town that is so vital to changing policy. And then 
in the process, we can go home and work on changing hearts as 
well, just as David Scott has done for me.
    And so, with that, Mr. Chairman, thanks for the opportunity 
to highlight this important issue today.
    [The prepared statement of Mr. Cramer follows:]

 Prepared Statement of Hon. Kevin Cramer, a Representative in Congress 
                           from North Dakota
    Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee, thank you for this opportunity to provide testimony today in 
support of H.R. 6020, a bill introduced by my good friend and Committee 
Member, Congressman David Scott.
    Please know I will not fault you for being curious as to why a 
Congressman from North Dakota, where the nearest 1890 land-grant 
university is over 900 miles away, is the lead Republican cosponsor of 
a bill to establish a scholarship program for young African American 
college students. My interest in this issue stems from my close 
relationship with Congressman Scott, and our shared mission of seeking 
pragmatic solutions to fix our nation's most pressing economic and 
social crises.
    The seeds of the bill we are discussing today were planted at the 
beginning of the 114th Congress during the House's consideration of 
H.R. 3, the Keystone XL Pipeline Act. As lead sponsor of the Keystone 
XL legislation, Congressman Scott approached me about working together 
on an amendment to help tackle a social crisis in his district and 
around the country, which is the high unemployment rate among young 
African American men. The unemployment rate among this group is around 
40 percent nationally and as high as 50 percent in some inner city 
communities. Our proposed amendment would have utilized existing 
apprenticeship programs to urge labor unions and contractors to 
actively recruit and train African American men between the ages of 18 
to 37 for jobs related to the construction of the Keystone XL pipeline. 
Both Congressman Scott and I saw this as a unique opportunity to not 
only help spur the hiring of underemployed blue-collar American workers 
who are ready and eager to rebuild the nation's infrastructure, but 
also as a strategy to help alleviate a social crisis without the use of 
additional Federal resources or mandates.
    While our amendment was not included in the final Keystone XL 
pipeline bill passed last year, Congressman Scott decided to expand on 
this effort through the introduction of two inter-connected pieces of 
legislation, H.R. 6020 and H.R. 6021.
    H.R. 6020, which is before the Committee today, would establish 
scholarship programs at the 19 historically black land-grant 
universities for students interested in studying agriculture-related 
fields such as agribusiness, food production, retailing, horticulture, 
and soil sciences.
    H.R. 6021, modeled off our Keystone amendment, would urge the 
Department of Labor to work with businesses, labor unions, and 
contractors to actively recruit, hire, and provide on-the-job training 
and apprenticeship programs in infrastructure-related fields for 
African American men between the ages of 18 to 39.
    While the unemployment rate has fallen in recent months, the number 
of Americans who have dropped out of the labor force continues to 
climb, and good paying jobs are still difficult to find for many 
Americans. According to the latest employment statistics released by 
the Department of Labor, a record 95 million Americans have dropped out 
of the workforce. Moreover, the current labor force participation rate 
sits at 62.7 percent, which is among the lowest levels we have seen in 
the last 40 years. Looking at just the agriculture industry alone, the 
number of farmers in the United States has declined over four percent 
in recent years and the median age of an American farmer is now 60 
years old.
    These alarming statistics indicate a new strategy is required to 
better sync our country's education system with the needs and demands 
of a 21st century workforce. The bills offered by Congressman Scott 
provide a targeted two prong approach to helping improve America's 
employment crisis by increasing the number young people receiving a 
good education in career fields which need the labor, such as 
agriculture, while also encouraging the building trades to invest in 
the wealth of human capital and potential which currently sits untapped 
on the sidelines.
    To conclude, I firmly believe these two bills will reap major 
rewards for the nation, all at a minimal cost to the Federal 
Government. Further, there is no social program more successful than a 
good education which leads to a good paying job. In North Dakota, I 
have witnessed the economic power which can be unleashed when the 
education system and private industry work in tandem to meet the needs 
of our state.
    I am proud to support this bipartisan piece of legislation, and I 
encourage the Agriculture Committee to give it full consideration. I 
want to thank Chairman Conaway and Ranking Member Peterson for agreeing 
to hold this hearing and for the opportunity to provide testimony in 
support of this important bill.

    The Chairman. The gentleman yields back.
    I thank all three of you. While we are not going to 
question each of you, are there other Members who would like to 
discuss H.R. 6020 as a part of the conversation this morning? I 
would be happy to recognize anyone for 5 minutes. Brad.

  OPENING STATEMENT OF HON. BRAD ASHFORD, A REPRESENTATIVE IN 
                     CONGRESS FROM NEBRASKA

    Mr. Ashford. Yes, thank you. And I would like to reflect 
just a bit as well, and I will be brief.
    Nebraska is a state where the TransCanada pipeline has now 
ceased to go. In Nebraska, we struggled with trying to move the 
pipeline, and Kevin knows about this, and David. We have a 
little bit of history on the pipeline part of this or the 
construction job part of this.
    But I also want to talk about the speech very quickly that 
David Scott gave on the floor, because I was only in the 
Congress a week or so when David gave that speech. And I have 
been working in my community for 35 years with the African 
American community, ran a housing authority, did work there, 
and have been struggling with how do we put together, as 
Representative Cramer aptly says, put together the job 
opportunities with the unemployment rates that are so 
staggering.
    And when David gave that speech, and I was listening. I 
just, again, had been there just a brief time, maybe 2 weeks. I 
didn't know David very well. I didn't know anybody at that 
time. And I went up to David. I said, ``David, that was truly 
the greatest speech I have ever heard on the issue, because it, 
in fact, identified in clear language a problem and a crisis 
and an issue of black male unemployment between 18 and 39,'' 
something I have struggled with in my community my entire adult 
life, trying to find that way out. And I said, ``David, this is 
great, I want to get on this deal.''
    So we talked to Kevin Cramer and all the other cosponsors 
got involved. But of all the pieces of legislation I have been 
involved in all my years of legislative experience in Nebraska 
and a few years here, this is really one that I am most proud 
of, because it really is, and combined with the scholarships, 
is just an ingenious merging together of the education with 
jobs and with the mentoring piece.
    And I just want to take this opportunity in my last day or 
so here in Congress to underline my appreciation to the three 
of you, certainly, and to David for his eloquence that got me 
going 2 years ago on this issue.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman yields back.
    Ms. Adams, 5 minutes.

 OPENING STATEMENT OF HON. ALMA S. ADAMS, A REPRESENTATIVE IN 
                  CONGRESS FROM NORTH CAROLINA

    Ms. Adams. Thank you. Thank you, Mr. Chairman.
    And let me thank all of the Presidents and the deans and my 
colleagues for not only your support of this bill, but for the 
work that has been done on it. And, Congressman Scott, I 
especially want to thank you. I am just pleased to be a proud 
sponsor, a cosponsor as well.
    But I sit here today in this Congress because of North 
Carolina A&T State University. I am a proud alum. I am a 
graduate twice from North Carolina A&T. I do want to recognize 
Dr. Antoine Alston, who is our Associate Dean for Academics at 
the College of Agriculture and Environmental Sciences. And I 
want to thank you for being here and thank North Carolina A&T 
for all that it did for me, who took a poor black girl from the 
ghetto of Newark, New Jersey, came to North Carolina in the 
mid-sixties, was able to complete my work there, because A&T 
saw a lot in me and what I could become, and they made an 
investment. And so I was able to complete my degrees there and 
to go on to the Ohio State University and complete my Ph.D. 
there, only because of the North Carolina A&T.
    So I say that to say that I understand the plight of 
students. I am a 40 year educator. I taught at Bennett College, 
a small college, African American women's college in 
Greensboro, for 40 years. I have that HBCU experience inside 
and out. And I understand what it did for me, and I know what 
our 1890 schools can do and what they have done.
    And I am so pleased to support this legislation, because I 
know that it is going to not only benefit many of our students. 
Now, we do a lot with little. Our schools do a lot with little. 
I am proud to say that we are the largest HBCU in North 
Carolina and maybe even in the nation. I haven't looked at all 
the numbers. But we do great things for students who deserve an 
opportunity. And W.E.B. Du Bois said a long time ago that the 
most fundamental right is a right to education. And providing 
opportunities for scholarships for these young people will 
certainly do that, and help us with our unemployment rate.
    I am proud to say that my daughter, my only daughter, is a 
graduate of North Carolina A&T from the School of Agriculture, 
and is doing very well in Greensboro. But this is a field that 
is an important area. And as Congressman Scott has said, it is 
about everything, agriculture. It is about the clothes we wear. 
It is about energy, agribusiness, all of those things that we 
need and depend on.
    I don't know if Congressman Mark Walker is still here, one 
of the members of his staff, who now, as they changed my 
district, you all may have heard about all of that. But, at any 
rate, I represented North Carolina A&T and will through the end 
of this year. I am happy to not only advocate now but to 
continue to do that. But Congressman Walker has been given that 
part of the district now, and so I invited him to come. But I 
just want to say that we too have had some great Congressmen to 
come through from North Carolina A&T. Former Congressman Jesse 
Jackson, Jr., Edolphus Towns, and now Alma S. Adams.
    And so, Mr. Chairman, I just want to thank these gentlemen 
and ladies for coming today and for advocating for what I know 
will be a tremendous benefit to all of our schools and the many 
students that we seek to serve. I am way off script too.
    But anyway, those are the comments of my heart. And I just 
wanted to thank all of you for being here and just say this is 
a very important piece of legislation, and we certainly hope 
that you will join us in supporting that and getting this bill 
passed.
    Thank you very much, Mr. Chairman. I yield back.
    The Chairman. The gentlelady yields back.
    Austin Scott, 5 minutes.

  OPENING STATEMENT OF HON. AUSTIN SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman.
    I just wanted to take a second to thank my long-time friend 
and colleague David Scott. We have known each other since 1996. 
He has been a great advocate on many things that have helped 
move the country in the right direction.
    And any time I think of Fort Valley State, I can't help but 
think of another friend of ours, Lynmore James, who was a great 
advocate for Fort Valley, did a tremendous number of things 
when he was a Member of the State Legislature in Georgia and 
served with us. I just want to thank you, David, for your work 
on this, look forward to supporting it, and I look forward to 
continuing to work with you.
    Mr. David Scott of Georgia. Thank you, sir.
    The Chairman. The gentleman yields back.
    Gwen Graham, 5 minutes.

  OPENING STATEMENT OF HON. GWEN GRAHAM, A REPRESENTATIVE IN 
                     CONGRESS FROM FLORIDA

    Ms. Graham. Thank you, Mr. Chairman.
    And I want to thank my colleague Mr. Scott for including me 
in this legislation. I am proud to be an original cosponsor as 
I am ending my term in Congress and leaving Congress. My 
district was redistricted too, Congresswoman Adams.
    There is nothing that I could be prouder than to be able, 
in some of my last days, to be here advocating on behalf of 
HBCUs. And I want to recognize Dr. Robinson, who is the interim 
President of Florida A&M University in Tallahassee, and I am so 
proud to represent the Rattlers. Strike, strike, strike again. 
I am still working on the wrist action, still working on it.
    The 1890 land-grant universities, they have the important 
task of recruiting, educating, and ensuring that future 
generations are excited about, and prepared for, careers in 
agriculture. This is an immediate need. And I know that we must 
do all we can to support these wonderful universities in that 
effort.
    This bill would make an education in agriculture more 
accessible and affordable. And I know in north Florida that 
what Florida A&M is doing is helping young people get into the 
field of agriculture, and it is such a critically important 
area. As the age of those that are in agriculture goes up, we 
need to encourage young people to get into this wonderful 
field. Again, I want to thank you. It is such an honor to 
represent Florida A&M.
    And, Mr. Chairman, I yield back.
    The Chairman. The gentlelady yields back.
    Rick Allen, 5 minutes.

 OPENING STATEMENT OF HON. RICK W. ALLEN, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    Mr. Allen. Well, I have to tell my David Scott story real 
quick. But Kevin, all I can tell you is he walks the talk, 
because I had the opportunity to ride back to Georgia on an 
airplane and got to sit next to Congressman Scott. And he had 
his Bible open and, of course, we got into a discussion about 
his study and our faith journey. And I can't tell you, 
Congressman, how much I appreciate that opportunity to talk 
about how we could make a difference. Thank you, and thank you 
for walking the talk.
    Mr. David Scott of Georgia. Thank you very much. I 
appreciate that.
    The Chairman. The gentleman yields back.
    Are there others who want to be heard?
    I want to thank our first panel for getting us kicked off 
in a great way.
    We will now ask our second panel to join us at the witness 
table.
    The Chairman. I would like to welcome our second panel now 
to the witness table.
    We first have Dr. Juliette Bell, who is President, 
University of Maryland Eastern Shore, Princess Anne, MD, 
outgoing chair of the Council of 1890s Executive Committee. We 
also have with us Dr. Cynthia Jackson-Hammond, who is 
President, Central State University, Wilberforce, Ohio; and Dr. 
Paul Jones, President, Fort Valley State University, Fort 
Valley, Georgia.
    I would also again like to welcome the other Presidents and 
representatives of the other schools. During the question-and-
answer period, Members will be able to ask questions not only 
of the witnesses at the table, but of any of the other guests 
who represent the 1890s schools.
    So, with that, Dr. Bell, the floor is yours for 5 minutes.

        STATEMENT OF JULIETTE B. BELL, Ph.D., PRESIDENT,
 UNIVERSITY OF MARYLAND EASTERN SHORE; OUTGOING CHAIR, COUNCIL 
                 OF 1890's EXECUTIVE COMMITTEE,
                       PRINCESS ANNE, MD

    Dr. Bell. Thank you very much. And good morning to the 
House Agriculture Committee. It is my great pleasure to have 
another opportunity to speak before this august group.
    First, I want to thank the Chairman for his support and for 
providing this opportunity for us to speak before the 
Committee. And I also want to thank Congressman Scott for his 
diligence and his undying support, and those who are also 
cosponsors of this bill. We are very encouraged by your support 
and we appreciate the opportunity to speak before you this 
morning.
    As was said, my name is Dr. Juliette Bell. I am the 
President of the University of Maryland Eastern Shore, and the 
immediate past Chair of the Council of 1890 Universities, and 
of the USDA/1890 Task Force established by the U.S. Secretary 
of Agriculture.
    My purpose here this morning is to really speak to you 
about the importance of providing scholarship support that will 
help our students to achieve their dreams of careers in the 
agriculture fields.
    Let me start by saying, I grew up on a farm in Alabama. I 
picked cotton and corn and all other kinds of things. And one 
of my greatest ambitions was to get off the farm, and I was 
able to do that as a result of being a first-generation college 
student with support through scholarship. I find it in some 
ways ironic and in some ways divine providence that I am now 
leading a school that is a land-grant agriculture-based 
institution, because many of my students have similar 
backgrounds to myself. They are first generation, economically 
disadvantaged students.
    The advantage that I see for my current students is that 
the agricultural field has evolved greatly, and there are many 
opportunities for our students to explore the use of technology 
and to learn what modern agriculture really is all about. We 
want to be able to increasingly provide that opportunity to 
more students of African American descent and help them to be a 
part of the American Dream.
    As I mentioned, we serve a very diverse student population. 
Many of my students, about 50 percent are first-generation 
college students; and about 70 percent of my students are Pell-
eligible, meaning they are also economically disadvantaged. 
And, on top of that, about 90 percent of my students depend on 
some form of financial aid.
    When students in that situation are faced with whether they 
can afford to come back to school, whether they are 
academically prepared or not, oftentimes they are forced to 
withdraw and as a result of that withdrawal, they lose the 
opportunity to achieve their dreams. This bill will provide the 
university, in particular my university, and the other 18 1890 
institutions an opportunity to provide some financial support 
to those students who are academically well-prepared, but just 
not economically prepared to sustain their educational 
experience.
    We know that the workforce is underrepresented in terms of 
African Americans in agriculture. We also know that the 
workforce is graying, especially in agriculture. I believe I 
heard that the average age for farmers now is 60+ years, and 
among African Americans that number is proposed to be much 
higher. We also know that it is important that students know 
that agriculture is a career that they can pursue and that 
there are jobs.
    A report that I cited in my testimony indicates that ten 
percent of the economy is driven by agriculture, but the number 
of jobs that are being filled is much less, and the diversity 
of those jobs is even less.
    So this bill will provide our universities, which are often 
not able through endowments and private funding, to be able to 
provide that level of support to these very deserving students, 
not just to help them get a degree, but to address the 
workforce needs and the economic development of our regions, 
and of our country.
    So, again, I ask for your support. I thank you for this 
opportunity, and I will be happy to answer any questions.
    [The prepared statement of Dr. Bell follows:]

Prepared Statement of Juliette B. Bell, Ph.D., President, University of 
  Maryland Eastern Shore; Outgoing Chair, Council of 1890's Executive 
                      Committee, Princess Anne, MD
Moving Full STEAM Ahead: Meeting 21st Century Challenges for Innovation 
        in Science, Technology, Engineering, Agriculture, and 
        Mathematics
    To Members of the Agriculture Committee of the U.S. House of 
Representatives--Good morning!
    My name is Dr. Juliette B. Bell and I am honored to speak before 
you, not only as President of the University of Maryland Eastern Shore, 
but also as the former chair of the Council of 1890 Universities, which 
consists of Presidents of the nineteen 1890 Universities, and as former 
co-chair of the USDA/1890 Taskforce established by the U.S. Secretary 
of Agriculture.
    I am here today to testify in support of H.R. 6020, a bill that 
establishes funding for Student Scholarships for the 1890 Land-Grant 
African American Colleges and Universities Act. I ask your support of 
this bill, which provides much-needed student scholarship funding of 
$1,000,000 a year for 5 years for each of the 19 Historically Black 
Land-Grant Universities, including the University of Maryland Eastern 
Shore (UMES).
    Congressman Justin Morrill, one of the founders of the Republican 
Party, authored the Land Grant College Act of 1862, in order that 
colleges be established for the endowment and support of the education 
of the ``sons of toil;'' that they should be educated not only in 
classical studies and military drill, but also in the mechanical arts, 
and agriculture, which Morrill described as ``the foundation of all 
present and future prosperity.''
    Enacted in the midst of the Civil War, The Morrill Act did not 
provide for the education of the African American citizenry, as 
segregation of races prohibited the admission of African Americans to 
many of these land-grant colleges. Following the Civil War, in the 
years of reconstruction, Senator Morrill, continued his advocacy for 
the ``sons of toil,'' this time seeking to include those citizens of 
color who were not provided for under the original Act.
    Thus, in 1890, with the enactment of the Second Morrill Act, funds 
from the sale of public lands were set aside for ``the more complete 
endowment and maintenance'' of land-grant colleges except that no funds 
would be distributed to states where there was a ``distinction of race 
or color'' in admissions. However, the Act did stipulate that ``the 
establishment and maintenance of such colleges separately for white and 
colored students'' would be considered compliant with the Act provided 
the state ``equitably divided'' those funds between the institutions.
    Last year, we had the honor of celebrating the 125th anniversary of 
the signing of the Second Morrill Act, with several activities here in 
Washington, D.C. including testifying before this august body, the 
Agriculture Committee of the U.S. House of Representatives. In 
recognition of the critical mission of 1890 Universities as educators 
of the nation's ``sons of toil'', Congressman Scott has introduced H.R. 
6020, to support our efforts. We salute him and the cosponsors of H.R. 
6020. For many students, our institutions represent their only access 
and opportunity to attaining a college education.
    The University of Maryland Eastern Shore (UMES) is pleased to be 
one of the nation's 1890 Land-Grant Universities. Founded in 1886, UMES 
is located on the Delmarva Peninsula, east of the Chesapeake Bay and 
west of the Atlantic Ocean, in the heart of Somerset County, on 
Maryland's Eastern Shore. In less than a 3 hours' drive from where we 
sit today, one can tell that ``agriculture'' is a driving force on 
``the Shore.'' From the time of the first settlements in our state, the 
economy of the Eastern Shore has traditionally been driven by the land 
and the waterways that make our region so bucolic. Farmers, oystermen, 
crabbers, fishermen and poultry growers have not only made livelihoods 
for their families and employed countless others, but they have helped 
our region thrive. Further, the Atlantic Ocean, lined by sandy beaches 
and natural habitats, provide for a booming tourism industry that 
undergirds the state's economy. Indeed, one cannot think of Maryland's 
iconic foods (Maryland Crab Cake) and places (Annapolis, Baltimore, St. 
Michael's and Ocean City), without thinking about the contributions of 
the many stewards of the land and sea that make our state the land of 
opportunity.
    As a Historically Black College or University (HBCU) with a land-
grant mission, much of our work at UMES has been to open doors of 
opportunity for capable students from diverse backgrounds and prepare 
them for meaningful careers that enable them to support their families, 
our state and our nation.
    The university's 3,900 students are culturally and geographically 
diverse. Currently, UMES is one of the most diverse HBCU's in the 
nation--67% of our students are African American, 13% are white, and 
20% are multi- or other-race students. More than \3/4\ of our students 
are Maryland residents, with a significant number from others states 
and some 30 nations. And, all of these students are being prepared for 
careers that will move us forward in our efforts to make America 
greater.
    One common denominator that many of our students share is their 
economic status. We recognize that the 1890 Universities serve a 
diverse population and that many of our students are economically 
unprepared to fund their college education. At UMES, more than 50% of 
our students are the first in their families to go to college and 
nearly \2/3\ are Pell-eligible. Unfortunately, many of these students, 
while academically succeeding, are forced to drop out of college 
because they don't have the money to cover the modest tuition that our 
institutions charge. At the same time, our institutions do not have 
large endowments and private support that allow us to assist every 
student who needs it.
    The scholarship funds provided by H.R. 6020 will help our students, 
not only African Americans, but also the many white students that our 
1890 Universities proudly serve. These economically disadvantaged 
students, black and white alike, will benefit from the scholarship 
funds that will help them fulfill their dreams of a college degree in 
fields that will help them land good jobs, contribute to the nation's 
economy, and improve the lives of their families for generations to 
come.
    Your support of the H.R. 6020 is critical to our ability to assist 
these students and support the economic growth and development of our 
country. This bill would provide scholarships for students to pursue 
careers in food and agricultural sciences, including agribusiness; food 
production; retailing; clothing industries; energy and renewable fuels; 
and farming marketing. All of these are vital career paths for 
residents in rural communities like ours on Maryland's Eastern Shore.
    Despite the strides that our nation has made in diversifying many 
industries and professions, minorities are still grossly 
underrepresented in the Science, Technology, Engineering, Agriculture, 
and Mathematics--what we call STEAM--disciplines. The 1890 Universities 
continue to be major producers of minority STEAM graduates in areas 
including engineering, mathematics and statistic, agriculture, and 
marine sciences.
    A recent report by the White House Office of Science and Technology 
Policy (OSTP) and the White House Rural Council, in collaboration with 
Federal agencies and private-sector stakeholders, in announcing new 
efforts to expand and diversify the U.S. agriculture workforce, brought 
the issue of the diversity in agriculture into stark reality. The 
report, titled America the Bountiful Initiative to Strengthen U.S. 
Agricultural Workforce, stated the following:

          Agriculture and its related industries provide nearly ten 
        percent of U.S. employment, but the number of students 
        graduating with degrees in agricultural fields is not meeting 
        industry demand. Agricultural education needs to attract a 
        diversity of students and keep pace with the increasingly 
        complex nature of agricultural innovation needed to address 
        global challenges. Falling behind in agriculture is a threat to 
        national security and must be addressed as such.

    UMES offers more than 30 undergraduate majors including: 
Agriculture and Agribusiness and offers more than 20 graduate programs 
including masters and doctoral degree programs in Food and Agricultural 
Sciences, Food Science and Technology and Marine and Estuarine 
Sciences, Natural Resource Sciences and Quantitative Fisheries and 
Resources Economics.
    With additional support, UMES can continue to engage our students 
in ways to enhance our ability to deliver solutions in key areas. For 
example, funding under H.R. 6020 would allow us to support students to 
engage with our faculty in expanding the work of four centers of 
excellence that we launched last year in the following areas:

  <bullet> Chesapeake Water Quality Center;

  <bullet> Center for Obesity Prevention;

  <bullet> Center for Agribusiness and Economic Development; and

  <bullet> International Center for Personal Protective Equipment.

    At UMES, we have translated our historic land-grant mission to 
support 21st century life and learning. Academic programs such as 
engineering, cybersecurity, aviation, construction management, and 
technology, have their roots in the mechanical arts. Further still, 
programs like hospitality and tourism, child and family development and 
human ecology owe their genesis to the former domestic sciences, which 
have long been a staple of the land-grant mission. And even agriculture 
has had a 21st century transformation in the areas of precision 
agriculture, renewable energy, sustainability and biomedical and life 
sciences.
    UMES is appreciative of funding from the U.S. Department of 
Agriculture to support our 1890 land-grant mission. Largely due to this 
support, the university has been able to expand its research portfolio, 
which enabled the university to achieve the coveted status as a 
Carnegie Doctoral Research University in February of this year. The 
university's research portfolio includes such innovative projects as 
using beets as a source for jet fuel, and converting chicken waste to 
fuel and fertilizer. Moreover, the University currently serves as the 
lead institution in a coalition of six universities nationwide in the 
operation of the Living Marine Research and Cooperative Science Center 
(LMRCSC), which conducts research to preserve the marine and estuarine 
environment so vital to the health of the Chesapeake Bay and other 
waterways in the country.
    Our scientists have continued to position themselves at the cutting 
edge of new innovations. For instance, given the importance of food and 
water security, our scientists are exploring how unmanned Aerial 
Vehicles (UAVs) can be used to improve the efficiency of water use and 
application of nutrients to large commodities such as corn with very 
promising results.
    Just over a decade ago we were able to establish a state of the art 
research facility with Federal and state support where critical 
research on poultry and seafood safety and quality is carried. Our 
scientists are nationally recognized. Indeed Dr. Parveen one of our 
Food safety specialists serves on the Secretary of Agriculture's 
National Advisory Committee on Microbiological Criteria for Foods.
    Through our extension funding, we have engaged our local community 
through numerous community forums and presentations in an effort to 
educate them about the benefits of agriculture to our community, our 
state and our nation. And, UMES actively engages youth in order to 
promote careers in the STEAM disciplines.
    I believe that strategic investment in 1890s will lead to a more 
level playing field that will allow us to be even more competitive and 
effective. Our graduates have been successful in diversifying the 
workforce and making meaningful contributions in the Federal, state, 
and business sectors. Certainly, by supporting H.R. 6020 and funding 
for Student Scholarships for the 1890 Land-Grant African American 
Colleges and Universities Act, you will be making an investment that 
will reap dividends for our students and this country.
    Strategic investment in 1890 Universities is an investment in the 
future. Again, thank you for your commitment and continued support of 
the 1890 Universities and the University of Maryland Eastern Shore.

    The Chairman. Dr. Bell, thank you.
    Dr. Jackson-Hammond, 5 minutes.

STATEMENT OF CYNTHIA JACKSON-HAMMOND, Ed.D., PRESIDENT, CENTRAL 
               STATE UNIVERSITY, WILBERFORCE, OH

    Dr. Jackson-Hammond. Thank you, Mr. Chairman, and thank 
you, Committee, for allowing me to be here to talk about some 
of the issues that are associated with Central State University 
and other 1890 universities.
    I must try to restrain myself because, as a college 
President, the first thing you want to do is tell the wonderful 
things about your university. I don't have much restraint. Let 
me begin by telling you a little bit about Central State 
University.
    Central State University is the only 1890 public land-grant 
university. We are also partners with an 1860, a little school 
in Columbus called the Ohio State University. Our partnership 
with them is very, very critical to making sure that we are 
meeting the needs of the people of the entire State of Ohio.
    We are the last of the 1890 institutions, receiving the 
designation February 13, 2014. And that was really a charge 
that came out of the farm bill and supported so fervently by so 
many people. And we certainly do want to recognize Congresslady 
Marcia L. Fudge, who we have adopted as a Centralian, and we 
thank her for all of her efforts in that regard.
    We do have wonderful alums who have come from Central State 
University, and the list goes on. But one that you might know 
quite easily is Congresslady Joyce Beatty, who is a soft-
spoken, demure Congresslady who has done a tremendous amount of 
work here in support of land-grant institutions. She is one of 
our stellar alums.
    You've heard President Bell talk about the needs of our 
students. And I want to make sure that we are very clear in 
understanding that the students who attend 1890 universities 
are very academically gifted students. We have the same sort of 
expectations, the same requirements, the same performance 
outcomes as any 1860 university. We expect for our students to 
perform. We expect for them to be contributors to society. We 
expect for them to get in, get out, get a job and contribute to 
the State of Ohio.
    We are very, very happy to know that we have a supportive 
governor, Governor John Kasich, who supports Central State; 
Representative Jim Buchy from Ohio, who is also a very 
supportive person for Central State's 1890 land-grant 
initiatives. On our staff, we have retired Senator Chris 
Widener from Ohio, who is also a proponent of support for 
Central State University.
    Our main focus as an 1890 university is to address some of 
the common issues that plague so many of our Ohio residents: 
Health issues, nutrition, obesity, high blood pressure, all of 
those issues that really can be ameliorated through a very, 
very sound agriculture program. What do you eat? What do you do 
with the food that you ingest? We are really proud to have a 
research component and an extension component that reaches out 
to ten counties, along with the Ohio State University, to try 
to solve those issues.
    This particular legislation, H.R. 6020, will allow 
students, and not just African American students, but a vast 
amount of all students who wish to seek this kind of 
educational experience, to be contributing citizens of the 
State of Ohio. It is important that we begin very early in 
training and preparing students to understand their worth and 
value added to the state. In support of H.R. 6020, we need this 
sort of legislation to help keep students in school.
    Basically, you cannot get a job at USDA or improve the 
economy if you are not well-educated. H.R. 6020 allows us to 
provide those opportunities. Too many of our students stop out, 
not because of academic reasons but because of financial 
reasons. And this is a burden on the families and on the 
students. And in order to make sure that we are meeting the 
state performance for students being able to contribute, they 
have to be able to get into school, complete their course of 
study within 4 or 4\1/2\ years.
    Now, if you are a STEM-Ag major, it is going to take you a 
little bit longer because of the increased number of science 
courses that are associated with those fields. They need some 
additional help. Our students who are in our STEM-Ag programs, 
they get employment opportunities before they graduate. Water 
resource management, agribusiness, sustainable ag, ag 
education. It is important that we keep those students in 
school and try to increase the number of students who are going 
into those fields.
    Students make the decision about what field they want to go 
into based on what they can afford. And it should not be that. 
It should not be that rationale. It should be what can we do to 
contribute to the state and to the nation. By 2020, USDA has 
said that they will have over 60,000 job availabilities. We 
need to be in a position to fill those jobs.
    We ask for your support for H.R. 6020, and we know that we 
will make a difference because of its passage. Thank you very 
much.
    [The prepared statement of Dr. Jackson-Hammond follows:]

Prepared Statement of Cynthia Jackson-Hammond, Ed.D, President, Central 
                   State University, Wilberforce, OH
    Members of the Committee on Agriculture and other Congressional 
Members, thank you for giving me, the President of Central State 
University, an audience in order to provide testimony in support of 
H.R. 6020. I wish to especially thank the Members of the Ohio 
Congressional leadership for their support of our efforts and their 
willingness to support this very important legislation. Thank you, 
Congressman Gibbs for your introduction of me to this Committee. Thank 
you, Representative Fudge and Representative Beatty for your direct 
engagement with Central State University in encouraging and providing 
innovation and unending support to the countless students from Ohio and 
all students who need ``champions'' for their success!
    The history of Central State University, an 1890 Land-Grant 
Institution, begins with our parent institution, Wilberforce University 
(WU), named in honor of the great abolitionist William Wilberforce. 
Established in 1856 at Tawawa Springs, Ohio, WU is affiliated with the 
African Methodist Episcopal Church and is one of the oldest Black-
administered institutions of higher education in the nation.
    In 1887, the Ohio General Assembly enacted legislation that created 
a Combined Normal and Industrial Department at Wilberforce University. 
The objectives of this new state-sponsored department were to provide 
teacher training and vocational education, and to stabilize these 
programs by assuring a financial base similar to that of other state-
supported institutions.
    The statute establishing the Combined Normal and Industrial 
Department declared that the institution was ``open to all applicants 
of good and moral character'' thereby indicating no limitations as to 
race, color, sex, or creed. It was clear, however, that the Department 
and its successors were designed to serve the educational needs of 
African American students.
    Although this Department operated as part of Wilberforce University 
in most respects, a separate board of trustees was appointed to govern 
the state-financed operations. In 1941, the department expanded from a 
2 to a 4 year program, and in 1947, it legally split from Wilberforce, 
becoming the College of Education and Industrial Arts at Wilberforce. 
The name was changed in 1951 to Central State College, and in 1965, the 
institution achieved university status. The University has grown 
steadily since its' founding. In recent years, it has added new 
academic programs, established a new College of Science and Engineering 
and constructed the accompanying Joshua I. Smith Center of Education 
and Natural Sciences, four new residence halls, and completed 
construction of a new University Student Center in fall 2015.
    In February 2014, the 113th Congress of the United States 
designated Central State University an 1890 Land-Grant Institution. 
This designation is a distinct recognition for an Ohio institution of 
higher education, and Central State is one of two institutions to hold 
this distinction. The major impetus of the designation is to provide 
access to education and to promote opportunities for students with 
interest in Science, Technology, Engineering, Mathematics and 
Agriculture (STEM-Ag) integrated through all academic disciplines.
    In tandem with progressive academic achievement, the University has 
embodied tenets of Service . . . Protocol . . . Civility<SUP>'</SUP>. 
Its faculty, staff, and students will provide service to the 
institution, and various communities for the greater good; be guided by 
protocol and adherence to best practices in order to gain desired 
results; and actively demonstrate civility with the understanding that 
respect for each voice is essential to a learned society.
    Much more has changed at Central State University throughout its 
history. However, one constant is the commitment to providing an 
excellent, affordable education to the residents of Ohio and beyond.
    Embedded in the University's Strategic Plan is Six Compelling 
Priorities that will be the focus of Central State University's 
initiatives. Those Compelling Priorities are:

  1.  Provide quality collegiate and academic experiences.

  2.  Focus on targeted student enrollment.

  3.  Reduce time to degree.

  4.  Promote higher retention rate.

  5.  Development of graduates with the knowledge, skills and 
            dispositions for professional careers and/or advanced 
            studies.

  6.  Implement efficient and effective institutional operations.

    Each of these Priorities is correlated to Ohio's performance model 
that allocates 50% of the University's state funding based on course 
completion and graduation. Central State University is the only 1890 
public university in Ohio and it is has the highest percentage of 
students (83%) who are Pell Grant eligible. As of 2016, 87% of the 
student body applied for loans to subsidize attendance.
    In order to receive Grants, Loans or Institutional Aid, students 
must meet the Satisfactory Academic Progress (SAP) threshold. Every 
year, Central State University's attrition rate is on average 40% 
across the University with the highest attrition occurring between the 
first and second year. Approximately, 73% of the students who do not 
return are students who have met the SAP eligibility but, are unable to 
maintain their monthly debt loan payment.
    Although the University attempts to ameliorate this serious 
attrition issue by providing institutional funding and by teaching 
financial literacy modules, we are unable to provide substantial 
support that will stop the erosion of students who must ``stop out'' or 
completely withdraw from the University.
    The H.R. 6020 presented by Representative David Scott of Georgia 
and co-presented by Mr. Cramer, Ms. Fudge, Mr. Ashford, Mr[s]. Love, 
Ms. Graham and Ms. Adams supports the hundreds of students who have the 
academic propensity and acumen to not only change their future but the 
future of their families and communities. Beyond the financial 
stability that H.R. 6020 would provide, there are other benefits that 
can be derived: complete their college degree uninterrupted; graduate 
with little or no debt to the Federal Government or to the institution; 
better focus on college completion and securing employment or an 
advance degree; less concern and stress on working families who support 
the college experience; opportunities to pursue meaningful academic 
disciplines in STEM-Ag and opportunities to pursue internships in 
fields that lead to careers with the U.S. Departments and or other 
state and Federal agencies.
    Central State University with a 129 year history of academic 
excellence has produced outstanding graduates who have made significant 
contributions in medicine, arts, politics, business, law, education and 
certainly in service sectors. Representative Joyce Beatty is an alum 
and she joins such notables of history as Leontyne Price, Arsenic Hall, 
Michael Ajisefe (President of ABUAD University, Nigeria), Hugh Douglas, 
Joshua I. Smith, Michael D. Brown, Hastings Bandu, and Nancy Wilson. 
All of these notables of history were first-generation college 
students. The students we educate today are so very much like the 
mentioned alums. The difference is that today's students are more at 
risk because of the lack of family financial support and knowledge of 
sound financial decision making.
    H.R. 6020 will set a standard of support that breaks the cycle of 
``unfulfilled'' promise to many generations of students who can either 
positively make their mark as productive citizens or become a part of 
the American dream that's often relegated to the shadows and fringes. 
Central State University has the ability, dedication and determination 
to produce the best graduate possible. As President of this iconic and 
historical institution, I seek your support for H.R. 6020.

    The Chairman. Thank you, Dr. Jackson-Hammond.
    Dr. Jones, 5 minutes.

STATEMENT OF PAUL A. JONES, Ph.D., PRESIDENT, FORT VALLEY STATE 
                  UNIVERSITY, FORT VALLEY, GA

    Dr. Jones. Chairman Conaway, Ranking Member Peterson, and 
Members of the House Committee on Agriculture, my name is Paul 
Jones and I am privileged to serve as the 10th President and 
probably the newest President of the 1890 Fort Valley State 
University, which is located in the heart of middle Georgia.
    I am honored to be here today, along with several of my 
colleagues, to testify for your support, support of 
scholarships for young men and women who aspire to serve our 
nation pursuing careers in the agricultural and related fields.
    This bill is designed to address the urgent need to train 
and educate students to fill crucial jobs in our country. USDA 
estimates, as Dr. Jackson-Hammond said, nearly 60,000 jobs will 
be available in these related fields, and yet they only 
anticipate our ability to meet the needs of about 30,000. There 
is a significant gap.
    With the resources from this scholarship support, we 
believe, as 1890 institutions, that not only do we have the 
potential, but we have the capacity to address this urgent 
concern. The National Center on Educational Statistics data 
shows the power and potential of HBCUs. The data reveals that 
while HBCUs constitute three percent of postsecondary 
institutions, they are home to approximately eight percent of 
African Americans enrolled in colleges and universities during 
the period of 2012 to 2014. And NCES predicts that African 
American enrollment in higher education will increase through 
2025.
    The characteristics in the same USDA report reflects that 
the percentage of ethnic minority students in agriculture, life 
sciences, veterinary medicine will continue that increase. And 
1890 land-grant institutions have played a major role in 
fueling this continued increase. We are proud at Fort Valley 
State University in that we have the distinction of ranking 
number six in awarding the number of agricultural degrees 
earned by African Americans. And this funding is important as 
HBCUs look to actively recruit and embrace a more diverse 
student body.
    There is a popular misperception about HBCUs and 1890 land-
grant institutions, and that is that we are not diverse. As a 
matter of fact, HBCUs and 1890s are very diverse, diverse in 
terms of race, ethnicity, political backgrounds, nationality, 
you name it. And issues of affordability and the strength of, I 
believe, our academic programs have been major factors in 
ushering this diversity, this welcome diversity that we are 
seeing on our campuses.
    The notoriety of signature academic research that we do, at 
Fort Valley State we are very proud of the cutting-edge 
research that we are doing; and we do that even partnering with 
many of our other land-grant institutions, both 1890 and 1860 
institutions. The fact that our biotechnology and plant science 
graduates routinely are accepted in Ph.D. programs across the 
country is a testimony to the quality. And I believe that 
quality is something that we all share together. It is often 
another misconception that to choose our campuses is to 
sacrifice in terms of quality.
    I have attended two land-grant institutions in my career, 
and I will say that our land-grant institution, and the other 
1890s, equally have the same quality. And we are under the same 
accreditation as our peer institutions. And so we don't 
apologize for what we do.
    But your support of this legislation I believe is very 
important, important not only to us but the history--or the 
future of this country in our number one industry.
    I thank you for allowing me a few minutes to testify before 
you. I thank you for your support, your bipartisan support, and 
we look forward to your conversation. Thank you.
    [The prepared statement of Dr. Jones follows:]

  Prepared Statement of Paul A. Jones, Ph.D., President, Fort Valley 
                   State University, Fort Valley, GA
Regarding H.R. 6020, Funding for Student Scholarships for the 1890s 
        Land-Grant African American Colleges and Universities Act
    Chairman Con[a]way, Ranking Member Peterson, and Members of the 
House Committee on Agriculture, I am Paul Jones and I have the 
privilege of serving as the tenth President of Fort Valley State 
University located in the heart of Middle Georgia.
    I am honored to be here along with my colleagues to testify in 
support of H.R. 6020, funding for scholarships for young men and women 
who aspire to serve our great nation by pursuing careers in the food 
and agricultural sciences including agribusiness, food production and 
food distribution.
    As the only 1890 Land-Grant institution in the State of Georgia, 
Fort Valley State University has, since 1895, contributed greatly to 
the advancement of agriculture and agricultural research in the state 
and beyond. Those contributions started modestly by simply planting 
gardens to feed students. Today, the university is an international 
leader in many aspects of agricultural research and leads a worldwide 
consortium research involving small ruminant animals like goats. 
Because of the support you have provided through the Department of 
Agriculture and other agencies, Fort Valley State University has forged 
collaborations with other universities, including the University of 
Georgia and Oklahoma State University to research and develop 
sustainable bioenergy systems. Our university has partnered with the 
United States Department of [Agriculture] Rural Development and the 
Forest[] [S]ervice to provide technical assistance to farmers and 
citizens in 35 rural counties in Georgia. The university's outreach in 
those counties has been particularly focused on supporting beginning 
farmers, ranchers and military veterans. Fort Valley State is engaged 
in developing cost-effective strategies to address food safety issues 
like controlling pathogens in animals and teaching those strategies to 
farmers and meat processors. As part of the Expanded Food and Nutrition 
Extension Program, the university is helping parents learn how to make 
healthy choices to feed their children and thereby addressing the 
increasing problem of childhood obesity.
    Fort Valley State University has been able to make such amazing 
contributions in agriculture because of the support you and your 
predecessors on this Committee have historically provided. This 
Committee understands the importance of agriculture to every person in 
every state and around the world. This Committee intimately understands 
the seriousness of issues like obesity, hunger and the increasing 
challenges associated with an increasing population. In particular, 
while the human population is increasing, the number of farmers is 
decreasing. I am thankful that your consideration of H.R. 6020, 
provides the opportunity to highlight the importance of having a 
consistent and sufficient number of educated, trained individuals eager 
to face our agricultural challenges and carry forward the critical work 
of feeding, clothing and providing energy for a global society.
    I'm elated to share with you that 1890 land-grant universities are 
ready to meet the noted challenges by using our excess capacity to 
educate a greater number of students in Agricultural disciplines. 
However, affordability remains a huge impediment for those wanting to 
earn a college degree. The majority of students at Fort Valley State 
University, and I am sure it is the same at other 1890 land-grant 
institutions, qualify for need-based financial aid. Sometimes, a few 
hundred dollars may be the only thing standing between a student who 
can and cannot enroll in college. The funding requested in H.R. 6020 
would provide opportunities not only for students to pursue a college 
degree, but also to work in a career field that is critical for the 
prosperity and health of our nation. The USDA projected in its United 
States, 2015-2020 Employment Opportunities for College Graduates in 
Food, Agriculture, Renewable Natural Resources and the Environment 
report that there will be 57,900 annual job openings for graduates with 
bachelor's degrees or higher in those areas. The report also states 
that only an annual average of 35,400 graduates with those degrees will 
be available to fill the 57,900 openings.
    The Characteristics of Graduates, in that same USDA report reflects 
that the percentage of ethnic minorities with degrees in Agriculture, 
Life Sciences and Veterinary Medicine has continued to increase since 
2013. 1890 Land-Grant colleges and universities have played a major 
role in fueling that continuing increase. In fact, according to the 
publication Diverse Issues in Education, Fort Valley State University 
ranks sixth in the nation in Agricultural degrees earned by African 
Americans. Enrollment in our Agricultural programs increased 28% from 
Fall 2014 to Fall 2015. However, overall, there is a huge opportunity 
to increase African American participation in agriculture careers. Fort 
Valley State University has strong programs and the capacity to assist 
in making that increase.
    All of the university's agriculture programs are accredited by the 
Southern Association of Colleges and Schools (SACS). Four of the eight 
undergraduate agriculture programs have additional professional 
accreditations. Our program and research areas include small ruminants, 
bioenergy, medicinal plant biotechnology, horticulture and agronomy, 
food product technology and safety, and agricultural economics. Our 
students regularly excel in national and international research 
competitions. We have multiple faculty members who have received 
recognition from United States Presidents. Current faculty members 
Sarwan Dhir and Isaac Crumbly, and retired faculty member Clinton Dixon 
each have received the President's Award for Excellence in Math Science 
and Engineering Mentoring. Professor Young Park is world renowned for 
his research in dairy technology. His books and publications have been 
translated into several languages. The Dean of our College of 
Agriculture, Dr. Govind Kannan, serves on the National Agriculture 
Research, Extension, Education and Economic Advisory Board to the 
United States Secretary of Agriculture and was recognized at the White 
House as a Champion of Change for Global Food Security.
    The university is located in the middle of the state, in the heart 
of peach and pecan country. Students in rural Georgia see agriculture 
through the windows of their Blue Bird school buses but may not 
recognize the tremendous career opportunities available in agriculture. 
The university is surrounded by high schools with large and active 
Future Farmers of America chapters of students with a passion for 
agriculture. H.R. 6020 funding will enable us to more successfully 
recruit and educate students that already have an interest in 
agriculture as well as those whose vision of farming is a mule and a 
plow.
    Fort Valley State University graduates go on to make outstanding 
contributions in their career fields. Some graduates, like Romanda 
Phelps, go to work for the USDA or other government agencies. Some 
graduates go to work in the private-sector like Dexter Johnson, an 
employee of Weyerhaeuser. Others choose to pursue an advanced education 
degree like Betsy Ampofo who is about to earn a Ph.D. at Cornell.
    Funding requested in H.R. 6020 will help 1890 Land-Grants continue 
to contribute to the much needed supply of Agriculture and Ag-related 
graduates. In addition, the funding requested in H.R. 6020 will assist 
1890 Land-Grant institution's efforts to successfully recruit non-
traditional students, including returning veterans, to our universities 
and into careers in Agriculture. 1890 Land-Grant institutions are doing 
great things in Agriculture and most have the capacity to do more if 
given the opportunity and the resources. H.R. 6020 will provide the 
funds necessary to allow us to use our capacity do even more.
    I am grateful for this opportunity to address the Committee. I 
especially want to thank you, Congressman Scott for your unceasing 
efforts to support public education in general and 1890 Land-Grant 
institutions in particular.

    The Chairman. Well, I thank our witnesses.
    I will remind our colleagues that during the question 
period, you can ask questions of the witnesses at the table or 
of any of the other individuals representing land-grant schools 
that are in attendance as well. I also ask that Members be 
recognized in order of seniority for those who were here when 
the gavel went down, and subsequent to that they will be 
recognized upon arrival.
    So, with that, I recognize myself for 5 minutes.
    Again, thank you for being here. Dr. Jackson-Hammond, you 
mentioned the partnership you have with the Ohio State 
University.
    Dr. Jackson-Hammond. Yes.
    The Chairman. And I know that, I believe, Prairie View A&M 
and Texas A&M have partnerships as well. Can you talk to us 
about the benefits that brings to the educational experiences 
that students have? For all of you with the other land-grant 
schools in your states, how are the educational opportunities 
that are strengthened by having cross-pollinization, for lack 
of a better phrase, with the 1862 schools that in many 
instances are bigger with broader programs that allow your 
students to specialize and/or do things that you couldn't 
necessarily do if you were on a standalone basis? Is that going 
on and, if so, can you explain to us? We will just start with 
Dr. Jackson-Hammond and then Dr. Bell and Dr. Jones.
    Dr. Jackson-Hammond. Absolutely. And thank you so very much 
for that question. It is important to realize that the Ohio 
State University has been an 1860 land-grant institution for 
somewhere around 100 years. With that designation they have a 
jump start over us.
    At the time, President Gordon Gee was the President of the 
Ohio State. He really did try to foster and did foster with the 
Ohio Legislature the ability for us to seek that designation. 
And from that point, we have been working with the Ohio State 
to help build our structures as a new 1890 land-grant.
    There are two parts of the 1890 funding: Research and 
extension. We work on our work plan with the Ohio State and 
will be submitting a joint report indicating the colocations we 
have in ten counties throughout Ohio State. Those counties--
yes.
    The Chairman. Actually, Dr. Jackson-Hammond, thank you. I 
was trying to figure out the experiences of students that would 
get these scholarships. Can they take classes at the Ohio State 
University? How do you facilitate that crossover?
    Dr. Jackson-Hammond. In the state of Ohio, we have a SOCHE 
plan that allows for any students to take courses that are not 
offered at their university at another university at no cost. 
That partnership was already established.
    But our research plan does include both institutions 
working on joint research projects where students do 
internships at the Ohio State, and Ohio State students will 
also be able to do joint research with us at Central State 
University.
    The Chairman. Dr. Bell.
    Dr. Bell. Thank you very much for that question. The 
University of Maryland Eastern Shore works very closely with 
the University of Maryland College Park, which is an 1862 land-
grant for the State of Maryland. In particular, we work closely 
in our extension programs. Our extension programs operate 
jointly. And so there are many opportunities for our students 
who participate in the agriculture programs to be involved and 
engage with students from College Park.
    We also have joint degree programs, and especially at the 
master's and doctoral levels. One in particular is our Marine, 
Estuarine and Environmental Science Program, which is a joint 
program between University of Maryland Eastern Shore, College 
Park, and several other institutions. And through that program, 
students take joint courses. They have joint research projects 
and so forth. There is good collaboration between the 
institutions.
    The Chairman. Dr. Jones, how about in Georgia?
    Dr. Jones. Thank you, Mr. Chairman, for that question as 
well.
    One quick example of a partnership with University of 
Georgia is with our veterinary technology program, which is the 
only accredited program in the state. That partnership allows 
our students to have a clinical rotation of 12 weeks at the 
University of Georgia. I think that is a wonderful partnership, 
and as we are able to expand with scholarship support, it will 
enable us to develop more of those rich kinds of experiences 
for our students going back and forth between the two campuses. 
That to me is a great example of something that we believe we 
can enhance through this scholarship support.
    The Chairman. Are there distance learning programs between 
the schools where students can take specialized classes that 
might not be offered at the 1890 school that would strengthen 
their role in production agriculture as they go out? Can they 
take those classes at the 1862 schools by distance learning?
    Dr. Jones. I will say that being part of the University 
System of Georgia, that is one of the real positive things that 
we have in our system, the opportunity for students to take 
courses through, we call it eCore, or other collaborative 
efforts that we have underway where our students can take 
courses on any of the campuses. But certainly, University of 
Georgia is a good example of where our students may take those 
kinds of courses.
    The Chairman. All right. Dr. Jackson-Hammond, is it the 
same thing there at your school?
    Dr. Jackson-Hammond. Yes, a similar collaboration exists 
within the State of Ohio. Because we are primarily an 
undergraduate institution, we have opportunities with the Ohio 
State to help build master's and doctoral programs, and that is 
where we are. Especially in one of our recent disciplines that 
we are trying to get on board is having to do with water 
conservation and water resource management.
    By the way, we have the only water resource management 
undergraduate program, residential program in the United 
States. That is a really strong program that the Ohio State 
University is really trying to work with us to develop graduate 
and collaborative programs throughout.
    The Chairman. I want to thank our witnesses. I am over 
time.
    David Scott, 5 minutes.
    Mr. David Scott of Georgia. Okay. Thank you, Mr. Chairman.
    It is very important also for the Presidents to address the 
importance of this bill in relationship to their own standing, 
their own ability that this will heighten their ability to 
genuinely have a seat at the table in higher education in a 
much more profound way than we have now.
    On two points that you mention, we want to make sure that 
the Committee is aware that we have White students as well at 
these schools. And it is very important also to know that 
several of our colleagues who are Congressional partners here: 
Congressman Luetkemeyer, who is a graduate of Lincoln 
University; and Senator Joe Manchin III, who is a graduate of 
West Virginia State University. You see the critical role in 
the reach-out here.
    And then the other point, following up on your excellent 
line of questioning, Mr. Chairman, is the enhanced position 
that these universities will have as they interlock with the 
1860s, who are much further, more well-endowed financially to 
be able to do that. So that there will come a day when students 
at the University of Georgia will come over and be able to take 
courses that they don't have or that experience that they can't 
have at the University of Georgia at Fort Valley.
    So the other point I would like to get to is, the other 
measure of this is the African American community itself. And I 
would like to just ask each of the Presidents to respond to 
what this bill will mean to you in terms of an enhanced role of 
leadership in the African American community, which is 
certainly badly needed. I am not sure many people realize that 
we do have a critical crisis of a breakdown in the African 
American family structure and what this means to be able to 
provide that kind of financial assistance.
    I might just add, Mr. Chairman, that I am, as you know, a 
product of an 1890. But my experience is the experience of 
literally hundreds of thousands of young African Americans out 
there. For when I graduated from high school, I got an 
opportunity only because the people of Daytona Beach, Florida, 
got together and raised $300 for me to go to the college of my 
choice. I gave my mother $150. I took $150 and a Greyhound bus 
ticket to Tallahassee, Florida. Thank God there was Florida 
A&M. That situation exists today, and that scholarship opened 
up into others. Eighty-eight percent of all of the African 
American students that obtain a college education do so because 
they have had scholarship and financial assistance.
    So if you could, I know my time is running short, but could 
you please respond as to what this truly means to you in each 
of your schools in terms of the leadership you can provide for 
the African American community and the nation as a whole?
    Dr. Bell. Thank you, Congressman Scott. I would like to 
start in addressing that the University of Maryland Eastern 
Shore sits on the lower Eastern Shore of Maryland in Somerset 
County, which is the poorest county in the State of Maryland. 
We draw a large percentage of our students also from Prince 
George's County, which is the inner city of Baltimore, and so a 
higher education is a transformative thing for many of our 
students. Having the opportunity to pursue a course of study 
that will lead to a lucrative career where there are jobs 
available is going to transform not only the immediate person 
that the scholarship will address, but it will also transform 
that family as well as that community.
    So we see this opportunity, as I have indicated from my own 
situation, as transformative. Getting an education that opens 
up doors of opportunity certainly not only impacts the 
immediate recipient but everybody that that person touches. And 
so we are very excited about the opportunities that this type 
of award will provide for our students and the communities we 
serve.
    Dr. Jackson-Hammond. Thank you, Mr. Scott, for that 
wonderful question about what we do; 1890 universities are 
about the value-added that we give to families and communities. 
As Dr. Bell said, we work with a population of students who are 
academically gifted but may not have had role models or a level 
of leadership within their immediate communities that could 
guide them through the college experience. When they come to 
our institutions, and it is not just one ethnic group, it is 
all students who come to our university, they get hands-on, 
touch points at every level that helps to build their 
character, their self-esteem, their confidence, so that they 
can become competent leaders once they leave the universities.
    One of the things that we do at most 1890 universities is 
say that your job is beyond getting just a college degree. It 
is about changing the landscape of the people in your 
communities. That is a built-in inherent part of our 
educational program. And the thousands and thousands of 
students who have gone on to make that difference is 
unbelievable.
    Dr. Bell talked about her experience as a child in Alabama. 
I am from Louisiana. I have to share this, my father had a 
graduate degree but was not allowed at that time to practice as 
a psychologist. He became a school principal and worked in a 
very agrarian area of Louisiana where they had something called 
split sessions, and the students went to school year round 
because they had to pick cotton during the off seasons. I don't 
really know how that works. But it was a 12 month experience. 
And those are the students, for generations and generations 
while he served there, learned the importance of giving back to 
their communities. And that was long before there were 
institutions in some of these areas that spoke to the land-
grant mission.
    But that land-grant mission was embedded in those students, 
and we still embed that in the students that we work with 
today. Giving back to the communities, becoming leaders, 
becoming change agents. That is the core of what we do as an 
1890, in addition to providing opportunities academically, so 
that they can have jobs and careers that change the economic 
and social dispositions of their communities and their states.
    The Chairman. Dr. Jones, if you would respond quickly. We 
are way over time with Mr. Scott.
    Dr. Jones. Yes. Let me just briefly say that in terms of 
your question, Congressman Scott, in terms of the impact from a 
leadership standpoint, I believe that today more than any other 
time in our history, our communities are calling for 
extraordinary leadership. The kind of visibility that this will 
bring to our communities that are challenged right now a great 
deal from an economic standpoint, from a social standpoint, 
from just about any way in which you would like to look at 
this.
    So this call for leadership is important, and what we can 
bring in this kind of initiative or this kind of scholarship 
support can dramatically increase the visibility and the 
economic impact in our communities. Our communities are calling 
on all of us to bring forth a level of leadership that they 
have never seen before, and we are excited to be a part of that 
and thank you for this kind of opportunity.
    The Chairman. The gentleman's time has expired.
    Mr. King, 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I appreciate being 
recognized and I appreciate the testimony of the witnesses.
    I want to start out and say I am completely convinced all 
of your hearts are right. And we will make that point first, 
but then I want to put a little piece of history in. We always 
have to do that for our own locale and point out that the Iowa 
Legislature was the first state legislature to accept the 
provisions of the original Morrill Act. They did that on 
September 11, 1862. And they would have been the first 
designation of a state agriculture college had it not been for 
K-State, bumped us on the third turn and slipped in ahead of 
us.
    So we pay attention to land-grant colleges and know what it 
means to have the resources. I would prefer that they were 
based on the land, especially when you are focused on 
agriculture, rather than on the cash that came with the 1890 
version. However, that is where we are today and land is a lot 
harder to come by, so I don't see any reason to try to change 
that. It is just, I notice the distinction.
    And I wanted to point out also that listening to the spirit 
of this discussion here, that the inner cities in America are a 
disaster. Anything that we look at from the data out of the 
inner cities, especially young men, especially young African 
American men, it is a resource to this country that we have 
just not figured out how to mobilize. We haven't figured out 
how to lift them up and get them into the flow.
    And I say that because the next statement I want to make 
is, and I would sense this from Dr. Bell in particular, but the 
rest of you, the very best place in the world to raise a family 
is on a family farm. And if we are going to do good things to 
help our society to go in the right direction, then for me, if 
we can get people going to the farm and raising their families 
there, they learn about the whole spectrum of life, the cycles 
of life of livestock from birth to death, to, we call it now 
harvest rather than that other word that seems to be abhorrent 
to people in the inner city, and it is what I grew up all 
around and had to wash it off my hands afterwards. But, all new 
wealth comes from the land. And we can trace every dollar right 
back to that soil.
    So this is inspiring to me in these ways. But I am getting 
to a but. And it is this, that I have a deep conviction and 
strong support for Ward Connerly's Proposition 209 in 
California. I have invested a significant amount of my 
legislative time in that and succeeded to a degree, in fact, in 
conflict with the current Secretary of Agriculture, Secretary 
Vilsack. But I would point out for this Committee what that 
proposition is, and we haven't had discussions in a long time 
on that. And it says this: The state, meaning the State of 
California, that was a constitutional amendment, the state 
shall not discriminate against or grant preferential treatment 
to any individual or group on the basis of race, sex, color, 
ethnicity, or national origin in the operation of public 
employment, public education, or public contracting.
    Now, that language of race, sex, color, ethnicity, or 
national origin is lifted exactly out of Title VII of the Civil 
Rights Act, and I support it 100 percent. It is the right 
thing. It is the right thing for us to pour forth all resources 
and all constitutional focus and all statutory focus to provide 
equal opportunity.
    And so my question, and I would start first with Dr. Bell, 
is this an equal opportunity bill before us or is it a 
preferential treatment bill before us?
    Dr. Bell. Thank you, Congressman, for that question. Let me 
say that, as I indicated before, our institutions, the 1890s, 
and mine in particular, are diverse institutions. My 
institution, in particular, consists of about \2/3\ African 
American students, about 13 percent White students, and about 
20 percent of students who either classify themselves as 
multiracial, or of other race, including Hispanic.
    Mr. King. Excuse me. Could I ask you then, is it your 
expectation that the scholarships that would be granted in your 
institution under the foundation of this bill would reflect the 
diversity within your institution today?
    Dr. Bell. The total scholarship package that we offer to 
students, including those resources provided through this bill, 
would provide opportunities for not only the African American 
students, but other students as well. We see this as an 
opportunity to leverage our support from the Agriculture 
Department and for our students.
    Mr. King. Thank you. I am running out of time. I am sorry.
    But would that also be your observation then, Dr. Jackson?
    Dr. Jackson-Hammond. Yes.
    Mr. King. And Dr. Jones?
    Dr. Jones. Yes.
    Mr. King. Then I would point out that in the bill, there 
are four references here that say, and it is the language that 
jumped out at me, four references that say young African 
Americans, four places. It seems to me the bill is more 
specific to this than you anticipate. And I wonder if you would 
be open to maybe making a little more specific language here 
that would allow for more equal opportunity.
    Dr. Jackson-Hammond. Thank you for that observation. It is 
important that, although we mention the word is historically 
black colleges and universities. We have never been 
institutions that eliminated or disenfranchise any group of 
people who wish to come. As a matter of fact, Central State 
University's charter speaks not to African American students, 
but it speaks to those of good character who wish to have----
    Mr. King. Thank you, Doctor. We are out of time. I would 
point out that the word historical doesn't show up here in 
these four references that I made. I appreciate your testimony.
    I yield back the balance of my time.
    The Chairman. The gentleman's time has expired.
    In deference to trying to make sure everybody has a chance 
to talk to you, I am going to be a little tighter on the clock. 
Ms. Adams, 5 minutes.
    Ms. Adams. Thank you, Mr. Chairman. Again, I want to thank 
our Presidents and deans for coming today.
    I want to say, again, what a proud honor it is for me to be 
a graduate of North Carolina A&T, an 1890 school, and to 
support the legislation.
    When we talk about what we are talking about today, we are 
talking about equal opportunity. We are also aware that there 
has been inequity in terms of funding for 1890 schools and 
HBCUs in general over the years. I am responding to the 
question that you asked. It is about equal opportunity. And 
most of our students, as we have mentioned who attend 1890 
schools, are first generation, come from families with very, 
very meager means, and who just don't have the finances. And of 
course, if you have access to get into college and you don't 
have the money, then you don't have that opportunity.
    I am a proud co-chair of the bipartisan HBCU Caucus, and I 
am still committed to raising the profile of 1890s and the 
Historically Black Colleges and Universities as institutions 
that not only promote and nurture students. Some of the 
students, a lot of the students are students that look like me. 
Many of them don't. But we are about educating and providing a 
great education.
    So my first question is to the entire panel. If each of you 
can outline the importance of having a more diverse workforce 
in the field of agricultural science and speak briefly to how 
your schools are contributing to this critical pipeline.
    Dr. Bell. I will start in trying to address that question. 
I think that, clearly, we believe that diversity is important 
from every aspect and every discipline. In particular, many of 
the communities that suffer the most in terms of food deserts 
and issues related to the production of food, fiber, and fuel 
are minority communities. And we believe that diversifying the 
workforce, including more ethnically diverse members in this 
community who are working toward solutions, will bring 
different perspectives to solving these major issues that 
confront us today.
    Ms. Adams. Thank you.
    Dr. Jackson-Hammond.
    Dr. Jackson-Hammond. Thank you so very much. Where Central 
State University is situated, it is in a very small community, 
and the majority of the residents there are not persons of 
color. This particular bill and this particular opportunity to 
reach out to a diverse population of students who don't look 
like me but also need the opportunities to go into fields such 
as science, technology, and ag, we certainly diversify the 
campus, the environment, and the communities so that there is a 
synergy about building a strong workforce in the area of 
agriculture.
    Ms. Adams. Thank you.
    Dr. Jones.
    Dr. Jones. If I may, I am sorry that Congressman King is 
not here, but just for a clarification standpoint, I do think 
that this is an equal opportunity solution here. And I believe 
that very strongly. And I believe that having this funding 
support allows us to leverage in a way that all students, all 
Americans benefit. And this kind of support is critical to our 
community, to our region, to the state, to the nation, and I 
just wanted to say that to make sure that is on record.
    Ms. Adams. Well, thank you very much. Let me quickly say 
that when we had our last Committee hearing with the 1890s, a 
number of the Presidents addressed the issue of the state 1-to-
1 matching funds and, of course, we have seen a trend where our 
schools are struggling. And the inequality, as far as I am 
concerned, is very problematic. Has there been any progress 
made on that issue and has the lack of funds impacted your 
universities? Anybody? We have 23 seconds here.
    Dr. Bell. That is still a major issue of concern to the 
1890 universities.
    Dr. Jackson-Hammond. It is definitely a concern, but I can 
say in the State of Ohio, we have a very supportive governor 
and legislative body who supports Central State University.
    Dr. Jones. It remains a concern, however, I will say in 
Georgia, we do get the 1-to-1 match. We are very proud of that.
    Ms. Adams. Thank you very much. I am out of time. Mr. 
Chairman, I did want to just recognize my intern whose last day 
will be with me on Friday, who is a very proud graduate as well 
of North Carolina A&T, Alana Covington.
    The Chairman. The gentlelady yields back.
    Mr. Gibbs, 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman.
    Talk about a little bit, Dr. Jackson-Hammond is from Ohio, 
Central State, and they are doing a great job down there. And 
they started a new ag education program that is much needed, 
and she mentioned in her testimony about the job placement and 
how these are the next generation of young men and women that 
are getting jobs right off the bat, so the need is there, and 
also the program they are doing with water and it is a huge 
issue in Ohio with Lake Erie and some other areas in the state 
with some challenges.
    But something I want to maybe reemphasize, it is really 
important, Central State is the last 1890 land-grant, and they 
just became that, I don't know, 3 or 4 years ago?
    Dr. Jackson-Hammond. In 2014.
    Mr. Gibbs. In 2014. Because Ohio State, the Ohio State 
University in Columbus is the land-grant. But, what needs to be 
talked a little bit about is how that all came about. She 
mentioned Dr. Gee, but think about this, you have the massive 
the Ohio State University, that saw the benefit to making 
Central State an 1890 land-grant.
    And so Dr. Jackson-Hammond, can you maybe expound a little 
bit on that? Because, that is really remarkable when you think 
about that. And I know we talk about the research and the 
partnership, but also there are some cost-benefits there. But 
Ohio State, in the legislature, had to recognize the benefit 
this was to the people in Ohio and maybe more broadly. And, it 
is worth maybe talking a little bit about, because when you 
think about that, Mr. Chairman, that is really incredible.
    And you think Ohio State University, that might be the 
largest university in the country now. It is right up there, 
and to have this partnership and then make the partnership work 
even better to a university with only a couple of thousand 
students, is remarkable.
    So, Doctor, would you maybe expound on that a little bit 
more?
    Dr. Jackson-Hammond. Thank you, Representative Gibbs, for 
giving me the opportunity to give a little history. And I am 
fortunate to have with me Senator Chris Widener, who was one of 
the Senators who carried that legislation in the Ohio 
Legislature. Is he here? Senator Widener in the back.
    Mr. Gibbs. And a former colleague of mine too.
    Dr. Jackson-Hammond. Yes, yes. And, of course, we were 
designated in the House for centuries, a century ago, but it 
did not carry through. And one of the groups that did not 
support Central State as a land-grant was the Ohio State 
University contingency. However, as years and decades passed, 
Gordon Gee and others began to see that we were an untapped 
resource in the State of Ohio and that they needed us as a 
partner to reach the various communities, the urban 
communities, some of the rural communities; that they could not 
make the necessary inroads just as a singular institution.
    So along with Senator Widener and many of the legislators 
during that time, along with Gordon Gee, said, ``You know what, 
we are wasting a resource.'' And Central State University as a 
land-grant can certainly supplement, support, and have a wider 
opportunity to make a difference in the State of Ohio. With 
that, we went on in 2012 to receive the State Legislature 
designation and in 2014, we received the Federal designation 
through the farm bill.
    Mr. Gibbs. But, Ohio State was involved in this somewhat. 
They saw a real benefit, not just for the students, but it was 
a cost-benefit. And I believe that your tuition is low.
    Dr. Jackson-Hammond. Yes, extremely. Nowhere compared to 
the Ohio State, but at the same time, we have the same level of 
academic performance. We have the same expectations. And so as 
a small institution, we are able to reach that population of 
students who cannot afford the Big Ten schools or go to some of 
the larger institutions. We are very cost affordable.
    I was sharing with the Congressman earlier that we have a 
large population of students from out of state. Forty-three 
percent of our students come from urban communities. And these 
are the students who want to remain in the State of Ohio and to 
be associated with the land-grant mission and the academic 
programs associated with that.
    So we have certainly reduced our surcharge. We are the most 
affordable institution in the State of Ohio. We are addressing 
college affordability, academic performance, and economic 
growth.
    Mr. Gibbs. Thank you. And thank you for being here and 
sharing all of the great things you are doing there. And, 
hopefully, this legislation will get passed the next Congress 
and give more opportunities for a lot more people.
    Thank you, and I yield back.
    The Chairman. The gentleman yields back.
    Stacey, 5 minutes.
    Ms. Plaskett. Thank you, sir, and thank you so much for the 
dedication and all of the work that you give young people all 
over this country. I have a son who is presently at the 
University of Arkansas in Pine Bluff where he is doing a 
fantastic job and really loves his experience there. He is the 
third generation to go to that institution, and the students 
are stellar from that institution and from so many of your own.
    One of the things that I was interested in finding out was, 
Dr. Jones, in your testimony, your written testimony, you 
discuss that there is a 28 percent increase in agricultural 
degree program enrollment at Fort Valley State between 2014 and 
2015. Can you explain what is the cause of that increase? And 
do you sense that there are more young people being drawn to 
the agricultural careers or is there another reason why this 
may be happening?
    Dr. Jones. And my dean is here who could probably 
elaborate, but what I will say is that we have had a much more 
focused effort in this regard over the last couple of years. We 
are doing a great job. We created an outreach coordinator to 
begin to work with young people and creating more exposure to 
the field, but also to the institution as well.
    There is far more visibility from our College of 
Agriculture these days, the way in which they are branding the 
programs and the institution and their marketing efforts. We 
can learn a lot from what they are doing with the rest of the 
campus. It is a combination of things that are happening. I do 
think there is more capacity.
    Ms. Plaskett. Right.
    Dr. Jones. I think the challenge we have today is the 
limited scholarship support for those students who wish----
    Ms. Plaskett. Who are interested in this.
    Dr. Jones. Right. Right.
    Ms. Plaskett. Because I can imagine that if there was the 
scholarship and the support, you could probably find even more 
students who would be making the application to try and come to 
these institutions. There are students who just won't even 
apply because they look at the amount and they realize that 
there is no way that they or their families can be able to make 
this happen. And so they are just falling off of the grid 
completely in terms of even making the initial effort to come 
after an education that can change not only their lives, but 
the lives of their family as well.
    Dr. Jackson-Hammond, have you conducted any, I think that 
this is more a financial term, but an ROI, a return on 
investment estimate to determine what kind of economic loss 
Central State suffers when students have to stop their 
education or stop out, when they take some time off because of 
the financial aspects of going to school?
    Dr. Jackson-Hammond. Absolutely. Thank you so very much for 
raising that question. We look at our financial performance 
annually, monthly, to see the impact of stop outs on the 
university. Ohio is one of those states where the allocations, 
financial allocations are based on performance, college 
completion, graduation rates, course completion, and retention. 
All of those factors impact the amount of allocations that we 
receive from the state.
    When you have 73 to 78 percent of your students who are on 
Pell grants and still have to have loans to supplement that, 
those are the kinds of dialogues that we are having every day 
about how do we keep students in school. When students drop 
out, then that impacts our performance with the state and, 
certainly, our graduation completion rate. We are limited in 
the funding that we receive from that.
    It also impacts default rates when students take out loans 
and they cannot pay those loans back because there is just not 
enough revenue coming in from the family to support them. That 
default rate, in turn, comes back as a cost factor to the 
university. And so that is a serious implication not only for 
Central State, but for most 1890 universities where these are 
first-generation students without any financial support.
    So it is great, and we do a great deal of financial 
literacy courses, programs, to apprise students and their 
families about the responsibility, but that level of education 
only is supported by students who have the wherewithal to pay.
    Ms. Plaskett. Thank you. Thank you for that information 
related to the cost to the university for students who do not 
have the financial support necessary to complete the degrees on 
time.
    And just in closing, I would always invite you all to work 
with the University of the Virgin Islands, which has 
agricultural programs. We would love to be supportive of you as 
well. Thank you.
    The Chairman. The gentlelady's time has expired.
    Austin Scott.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman.
    Dr. Jones, welcome to Washington. It is good to see you. 
And one of the things that I don't think we talk about enough, 
or give these institutions credit for enough, is the research 
that occurs there. And Fort Valley State, the small ruminant 
program there is among the best in the country. And certainly, 
any scholarships that we are able to give to people to go to 
that university, help the university as a whole. And so I look 
forward to supporting this and look forward to helping you do 
more to promote your institution and the valuable research and 
all that is done there.
    And I will tell you, while sheep are not a large part of 
the U.S. agricultural economy, they are a tremendous part of 
the world agricultural economy. And when we get into many of 
these other countries, the ability to help a farmer with his 
sheep herd goes a long way towards instilling goodwill in 
areas. I want to thank you for that program that you have there 
and the research and the extension that goes on there. And I 
recommend the cheese over the ice cream.
    But I want to ask you a couple of quick questions. And I 
know in your testimony, you have talked about the FFA, 
obviously 4-H, and other extremely important organizations in 
our area and throughout the United States and the chapters that 
surround the university. Can you talk a little bit about the 
partnership with high schools and community organizations that 
help students become aware of the opportunities at Fort Valley 
State and the agricultural sector?
    Dr. Jones. Yes. Thank you, Congressman Scott. And I 
appreciate your continued support.
    That is another area that I believe is very strong for us 
in terms of the work that we do through our College of 
Agriculture with high schools and even prior to that, the 
outreach that is conducted by our, whether it is through our 
extension or through other programs. Those are areas that I 
think is the reason why we are seeing the growth also in our 
programs. That work is very important, getting them exposed.
    FFA, for example, we will see nearly 500 students that will 
come to the campus at any given time, and getting them exposed 
to the work that we do is important. And that is what is also 
enhancing the diversity within our base. Our College of 
Agriculture, by far, is the most diverse of our other programs, 
but it is through this outreach effort and through the work 
that they are doing in the high schools and middle schools, is 
aiding us tremendously.
    Mr. Austin Scott of Georgia. As you know, we have nine 
military installations in the State of Georgia, a tremendous 
number of veterans in the area. Could you speak to some of the 
things that Fort Valley is doing to help recruit veterans who 
have served our country into your university and to the 
agricultural fields?
    Dr. Jones. Right. Well, we are proud of the Robins Air 
Force Base that we work with. We are designated as a military-
friendly institution. We do a great deal of work with the base 
and are looking at ways to expand our work. We are very proud 
of a new program that we were just authorized in, our Supply 
Chain Logistics Program that is really designed to work with 
the base and returning military men who are looking for 
careers, a change in some of their careers.
    But we have a very strong relationship with them, and we 
could do more. We want to see how we can expand those programs. 
We have a center in Warner Robins now that we are trying to 
expand the work so that we can create more educational 
opportunities for our servicemen.
    Mr. Austin Scott of Georgia. Well, I thank you for being 
here, and I hope when you see my friend Lynmore James there you 
will tell him I said hello.
    With that, I yield the remainder of my time.
    The Chairman. The gentleman yields back.
    Gwen Graham, 5 minutes.
    Ms. Graham. Thank you, Mr. Chairman. And, again, I want to 
recognize Dr. Robinson from FAMU University. I am so proud to 
represent FAMU. Every time I come on the campus the students 
are so kind to me. They even dance with me. And I love to dance 
and they just put up with me. They show me some new moves.
    My family would not be in Florida but for agriculture. My 
grandfather moved to south Florida and started one of the first 
dairy farms. This is something near and dear to my heart. And I 
really know that we need to encourage, as I mentioned in my 
opening remarks, we need to encourage young people to get into 
the field of agriculture.
    Mr. Scott took my question, but I forgive you, Austin. I 
was going to ask about veterans because it is so important. And 
I appreciate, Dr. Jones, your comments on that.
    Last summer, I had the first ever annual north Florida farm 
tour. We went to 14 counties, and I was honored to be able to 
have a panel discussion at FAMU. And we brought together just a 
wide variety of people, young people, veterans, people 
interested in agriculture. And it was such a great experience 
to get out all the wonderful things that were going on at FAMU. 
And I am curious if the other universities represented here 
have taken the opportunity to brag about what is possible and, 
also, hopefully this legislation that I am so proud to be an 
original cosponsor of, will allow many others to have an 
opportunity to take advantage of all the great things that are 
going on at your universities. This is your chance to just brag 
a little bit. Thank you.
    I yield back. I yield to the panel.
    Dr. Jackson-Hammond. Thank you so very much. That is what 
we do best, we brag about our institutions.
    It is very difficult to tell you a lot about Central State 
because you have to envision this beautiful place and this very 
agrarian community. You could drive for about 20 miles and you 
see nothing, and then out of the beautiful landscape is Central 
State University. And it has become a hub for so many people, 
especially students from urban communities who have never had 
an opportunity to really touch grass and see beautiful trees 
and enjoy the flora and fauna.
    And when they get there, they see the community of 
scholars, strong academicians, supportive staff, who really 
want to take a personal interest and do take a personal 
interest, because we realize that every student that comes to 
Central State University must leave as an emerging leader for 
themselves and for their communities. That is our charge. We 
can give them every opportunity and every academic program, but 
until they really internalize that, and they do internalize, 
they have a greater responsibility to a greater community.
    At Central State, we have three tenets that we follow. It 
is embedded in everything that we do. The curriculum, the 
social activities, the student groups. And those three tenets 
are service, protocol and civility. And those are not 
meaningless words for our students. They understand that the 
education that they get is because they must give back in 
service. They understand rules, regulations, or protocol that 
that is how the world works. And they understand the importance 
of civility. How do we get along with each other, how do we 
respect the views of each other. And amid all of that character 
and intrinsic attributes that we provide, they also get a 
strong, solid academic experience.
    I am proud to say that last year, we had 18 athletes who 
graduated, and 82 percent of them were in STEM-Ag majors. This 
year we have 18 football players who are graduating and 72 
percent of them are STEM-Ag majors. And that is phenomenal, 
because we have this traditional thought about what athletes 
do. Our students are students who happen to be athletes. And so 
we have a very wide range of high-performing students across in 
the College of Business, Education, Engineering, and Social 
Sciences.
    Ms. Graham. Thank you, Doctor.
    Mr. Chairman, I think Dr. Robinson would like to say a 
couple of words from FAMU, I would appreciate that opportunity. 
Thank you.
    The Chairman. Be brief. We are trying to get everybody in, 
so be brief.

 RESPONSE OF LARRY ROBINSON, Ph.D., INTERIM PRESIDENT, FLORIDA 
    AGRICULTURAL AND MECHANICAL UNIVERSITY, TALLAHASSEE, FL

    Dr. Robinson. Thank you, Representative Graham, for what 
you have done on behalf of north Florida, and in particular 
Florida A&M University. And thank you very, very much for the 
novel concept of the road tour so we can tell more people in 
north Florida about what we do at Florida A&M University for 
small, large, medium farmers around the state. We are a land-
grant institution and we have a statewide impact.
    I guess one key point I want to make, and that is the 
economic impact that we have in the State of Florida. Just as 
an example, Florida A&M University has a Center for 
Viticulture. That center has led to the development of nearly 
20 viticulture operations around the State of Florida. Of 
course, we specialize in the type of wine that doesn't grow 
everywhere else because of the climate in Florida. But the 
economic impact of the research done by Florida A&M University 
doesn't directly benefit us because we are prohibited from 
benefiting from it financially. But we have developed at least 
20 wineries around the State of Florida that are making jobs 
available for citizens, not only up in the Panhandle, but 
throughout the state. And in fact, it expanded throughout the 
South in general.
    There are vineyards and wineries in South Carolina, and our 
neighbors, Representative Scott up in Georgia, who are 
benefiting from the research done at Florida A&M University. I 
just want to emphasize the economic impact of these 
institutions in the 1890 community on the cities and towns in 
which we reside. Thank you.
    Ms. Graham. Thank you, Dr. Robinson. You are also producing 
great hand cream as well.
    Okay. I yield back, Mr. Chairman.
    The Chairman. Mr. Benishek, 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman. I thank you all for 
being here this morning.
    I just want to make it clear about this bill, is there a 
preference in the legislation for students from a certain area 
or background or is every student on a level playing field in 
regard to these scholarships? Anyone?
    Dr. Bell. As you have stated it, we are interested in 
creating opportunities for students who are particularly 
interested in the agricultural professions, so careers in 
agriculture, to be able to qualify for the scholarships so that 
they can complete their education. We are looking at these 
scholarships as an opportunity to augment what we currently do 
in terms of supporting students who have need. I think that 
having financial need is one of the factors that we would look 
to as well.
    One of the issues that we are looking to deal with and as 
HBCUs and 1890 universities, one of our goals is to provide a 
diverse workforce for the agricultural community. There is a 
strong need for that among agribusinesses, and I serve on a 
roundtable ag diversity and inclusion roundtable made up of 
businesspeople in some of the major industry areas who are 
interested in trying to find a diverse workforce for their 
industry.
    And we are one of the top producers or the top sector in 
producing students of color for this industry. We see it as an 
opportunity to----
    Mr. Benishek. Does that mean that a person of color is more 
likely to get a scholarship than a person who is not of color?
    Dr. Bell. I am sorry?
    Mr. Benishek. Does that mean that the scholarship, the 
question is, is there preferences based other than, to me, a 
need is a strong reason for a scholarship and as would be the 
desire to be in agriculture. But it seems like you are telling 
me that diversity, or there are some race-based rules for those 
scholarships. That is what I am trying to ferret out to you 
with these lines of questions, like Mr. King was talking about.
    Dr. Bell. I am not equipped to clarify that further than 
what I have already stated, but we certainly can----
    Mr. Benishek. Does anyone else have an opinion?
    Dr. Bell. Anybody else have a comment?
    Dr. Jackson-Hammond. Because the larger population of our 
students at our institutions are African Americans, certainly, 
some of the scholarships are applicable. But we don't see 
anything related to a race-based scholarship. When we bring 
students into our institutions, race is not a consideration. 
Any time a student says, ``I want to be a STEM-Ag,'' that is 
our charge, is to educate and provide as much support. And all 
of our students have financial need.
    Mr. Benishek. Yes, I know.
    Dr. Jackson-Hammond. All of them, so we are not making any 
delineation.
    Mr. Benishek. Let me go on to another question then, 
because several people mentioned this, and that was people that 
start at the university and yet drop out after a while because 
of financial issues, how often does that occur? What is the 
dropout rate after the freshman year, for example? Anybody have 
an answer to that?
    Dr. Jackson-Hammond. We look at the attrition rate from 
freshman to sophomore year, and usually that can range anywhere 
from 32 percent to maybe 40 percent. However, in the last 
couple of years, we have done a great deal of providing 
financial literacy to our students. And as we prepare for next 
semester and for the next year, we are finding more and more 
students being able to be retained because of their 
understanding of financial literacy concerns.
    Mr. Benishek. Is that a similar number to you, Dr. Jones 
and Dr. Bell? That seemed like a pretty high number to me, 35 
percent of people are dropping out after the first year.
    Dr. Jones. That is correct. The number, it has gotten 
better over the last couple of years through a number of 
initiatives.
    Mr. Benishek. In your opinion, is that more of a financial 
issue than an educational issue?
    Dr. Jones. Oh, absolutely.
    Mr. Benishek. It is not like they can't grasp the material.
    Dr. Jones. It is primarily.
    Dr. Jackson-Hammond. Primarily.
    Dr. Jones. It is primarily.
    Dr. Bell. Primarily it is financial. And our numbers are 
about the same, about 30 percent. Some of the students do stop 
out versus drop out, but a large percentage of them, once they 
leave, they don't make it back.
    Mr. Benishek. Right. I know it is very difficult to go 
back.
    Dr. Bell. We try to keep them from stopping out.
    Mr. Benishek. I am out of time, Mr. Chairman. Thank you.
    The Chairman. The gentleman yields back.
    Mr. Davis, 5 minutes.
    Mr. Davis. Thank you to the panel and thank you, Mr. 
Chairman.
    I too, Dr. Jones, had questions about veterans. And if you 
have anything to add in regards to how your programs or how 
H.R. 6020 would help recruit veterans, I mean, you are more 
than welcome to expand on your first answer, if you would.
    Dr. Jones. Thank you, Congressman Davis. Absolutely, the 
funds are needed. Many of our veterans that come to us, even 
though they often have support, they have other daunting tasks, 
other family concerns.
    Mr. Davis. Are these veterans usually using the GI Bill?
    Dr. Jones. Some of them, yes.
    Mr. Davis. Besides the funds, what is your institution 
doing to help recruit veterans?
    Dr. Jones. Well, one of the things that we did that has 
been very helpful, the University System of Georgia, has led an 
extraordinary charge within our system to recruit and support 
our veterans. In fact, so much so, we have now a Vice 
Chancellor for Military Affairs. And so we created centers, 
support centers on our campuses that are supporting these 
students.
    Many of them come with a great deal of challenges coming 
back, depending if they are coming back from war. And so the 
kind of support that we provide to them has been very helpful 
in helping them navigate our environment.
    Mr. Davis. Okay. Well, thank you. It seems like your 
success is showing. We appreciate what you are doing there.
    I guess I will ask the rest of the panel questions on what 
are your thoughts, Dr. Bell, on the state of our competitive 
award programs, from AFRI to the other small competitive 
programs?
    Dr. Bell. Well, I think that there is continuing need to 
enhance the competitiveness of our institutions. A number of us 
have very strong research programs, but we have a deteriorating 
infrastructure. And so in order to be very competitive for 
those research funds, we have to have the facilities and the 
infrastructure to support them.
    Mr. Davis. You would be in favor of them investing more in 
capital?
    Dr. Bell. Investing more in infrastructure, equipment, 
those kinds of things that support the research enterprise. At 
the University of Maryland Eastern Shore, we were just this 
past year, as a result of primarily USDA research support 
funding, able to be advanced in our Carnegie classification 
from a comprehensive to a doctoral research university. And so 
we are looking to build on that by being more competitive for 
Federal funds, especially those that come through the USDA.
    Mr. Davis. I guess I have a question for myself while we 
are on this. In the competition for USDA grants, is it any 
different relative to the competition for other agencies 
funding, like NIH or NSF?
    Dr. Bell. Maybe one of our research directors can answer 
that question.
    Mr. Davis. Somebody is raising their hand back there. I 
missed the first panel, sir, so I didn't get your name.
    Dr. Robinson. Mr. Chairman and Representative Davis, well, 
this is probably unfair, because I served as the last civilian 
science advisor at USDA CSREES before it transitioned into what 
is now NIFA. And when I came into that role, my job was to 
advise them on science, more broadly. But I had a particular 
concern about research opportunities for an 1890 community.
    And one of the things that I had to do was the annual 
report for the National Research Initiative, as you recall. And 
in that report, it was fascinating to discover that the success 
rate of 1890 land-grant institutions in the big pool, in the 
AFRI, and NRI, the success rate was just as comparable as it 
was for an 1862.
    The difference was that we were only about one percent of 
the applicants. And so what I did then is how do I encourage 
the community to submit more competitive grants over here, 
because some of the limitations really go to the issues around 
additional resources, infrastructure, and so forth, but for 
those of us who competed, we were just as successful. And that 
pretty much pans out throughout the Federal sector, with some 
exceptions.
    However, what we have been able to do with USDA is to use 
the capacity-building funds that they have to enhance our 
competitiveness over here in the larger pools of money. And 
Florida A&M University too itself was just reclassified as a 
research 2 institution in the Carnegie Classification because 
of the success that we have had. And for a university of our 
size, that is pretty phenomenal with the resources that we 
have.
    And that is the type of unlocked, untapped talent that is 
resident within all of these schools, because what really makes 
you great in research is having great faculty, but also having 
great students, right, to carry out those research agendas. And 
this type of program that you have would allow us to make a lot 
of progress on attracting the kinds of students who can engage 
in the world-class research that our faculty already do.
    Mr. Davis. Thank you very much. Thank you to the panel.
    The Chairman. The gentleman's time has expired.
    Mr. Allen, 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman.
    And of course, what an honor it is to be here today and 
talk about our own Paine College there in my district, which 
was founded by the United Methodist Church, which I am a proud 
member of, and a proud supporter of Paine College, and of 
course, Fort Valley in our state as well.
    And real quickly, I really don't understand why we are 
having problems at all universities recruiting folks in 
agriculture. I am a member of the Hephzibah Agriculture Club, 
and we had an extension agent that came down from Atlanta and 
talked to us. And he told a young lady who didn't know one end 
of a chicken from another, who, for whatever reason, decided 
maybe that is something she should get involved in, and he got 
her involved in 4-H and she started doing demonstrations; ended 
up getting a full ride to the University of Georgia on a 
poultry science scholarship; graduated top of her class. And 
she had like 12 offers in six figures to go to work in the 
poultry industry.
    So there are lots of opportunities, and somehow we have to 
figure that out and get our messaging out and get our young 
people more directed into these jobs that we need to fill out 
there. Particularly in my district, it is cyber. It is all 
about cyber and high tech and that sort of thing. Somebody told 
me there are over a million job openings in that industry 
across this country right now.
    So with that, my first question is, and, Dr. Jones, I will 
start with you. These universities were started for a purpose. 
And how do we stay the course by giving those who otherwise 
wouldn't have this opportunity to get the kind of education 
that you are offering? Because, obviously, Paine and Fort 
Valley and many others I have heard here today have outstanding 
graduates. How do we give those folks who otherwise wouldn't 
have that opportunity an opportunity to do this?
    Dr. Jones. This is a wonderful opportunity here today as we 
look at these scholarships. That is greatly needed. Many of us 
can speak to the need. Having served at several colleges, 
universities across the country, I have to be honest and say, I 
don't know that I quite understood that before joining this 
university less than a year ago.
    What I see here are students, they may come with meager 
beginnings, but they have extraordinary opportunity. But 
unfortunately, because of the lack of, or limited, resources, 
we struggle oftentimes in helping them get to that mark. And so 
to have something like this, as I would say to my colleagues, 
is a game changer, is a life-changing opportunity for our 
universities to help not only African American students, 
because that's where the focus is today, but it is what it is 
going to do for our nation.
    Mr. Allen. What I am saying, and I also serve on the 
Education and the Workforce Committee, somehow we have to get 
to these young people earlier. And my kids went to an inner 
city high school. We had 500 freshman in the high school and we 
graduated 250. What happened to those other 250 kids? It is 
tragic. How can we get to them when they are younger, some 
teachers tell me you got to get to them before middle school 
because that is when it goes off the charts.
    But is there any strategy to get into the the 4 to 6 or 4 
to 9 formative ages and get these folks on a career path and 
say, ``Hey, you have an opportunity here? This is why you need 
to get an education.''
    Dr. Jackson-Hammond. I thank you so very much for that 
question, and I want to share with you the importance of 
agricultural education. And we have just started our School of 
Ag Ed. And the purpose of the ag ed is to prepare ag education 
teachers who are in the P-12 schools working with 4th, 5th, 6th 
graders very early on a track. When you talk about the Future 
Farmers of America, 4-H Club, Tri-C Club, these are our 
opportunities for students and families to know very early 
there is a ``projectory'' that leads to a college degree. Our 
School of Ag Ed just started, and so we are having an enormous 
amount of impact in rural communities where students may not 
have even thought about going to school, but they know that 
there should be something more and something better out there 
if they could just have a ``projectory'' to follow. And that is 
what we are doing with our education program.
    Mr. Allen. Right. That is great news. Thank you. Yes.
    Dr. Bell. May I just add that one of the things that our 
agriculture students engage in is a program called MANRRS, 
which is Minorities in Agriculture, Natural Resources and 
Related Sciences. We have started a junior MANRRS program at 
our institution that brought in about 150 middle school 
students to participate and to learn more about the 
agricultural profession, to work on our farm with our students. 
And so that has been very successful in piquing the interest of 
students in the agriculture profession. I believe that that is 
one way to address building that pipeline that we so 
desperately need.
    Mr. Allen. You are on it. Great.
    Dr. Bell. Yes.
    Mr. Allen. I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Scott, any closing words?
    Mr. David Scott of Georgia. Yes. Thank you very much Mr. 
Chairman. Thank you and your staff for pulling this hearing on 
the bill together.
    But first of all, I would like to give a response to 
Congressman King's point because it is very, very important for 
everyone to know that this is an equal opportunity bill; no if, 
ands, and buts about it. It is very important for everybody to 
know that the 1890s were founded on the principle of equal 
opportunity, because the 1890s came to fruition because of the 
Plessy v. Ferguson Supreme Court decision which maintained that 
we have a doctrine of separate but equal. And the 1890s have 
been striving to be equal.
    The one thing that has held the 1890s back is that they 
were never given the necessary resources to achieve that 
equality. We want to make sure to clear the air, and I may 
mention in each of the sections where Congressman King 
mentioned we mentioned African Americans, if I may state, that 
the title of this Act is the following: This Act, and this is 
page 2 of the bill, ``This Act may be cited as the `Funding for 
Student Scholarships for the 1890s Land-Grant African-American 
Colleges and Universities' ''. It does not say funding for 
African American student scholarships. We want to make that 
clear.
    And where we do reference the African Americans, as he 
pointed out in three other areas, on page 3, we say: ``There is 
a great need to increase the number of young African-Americans 
seeking careers in the food and agricultural sciences''. There 
is inequality in the job market of careers because we have not 
had the resources to prepare the young people for that.
    And then on page 5, it says: ``To increase the number of 
young African-American individuals seeking a career in the food 
and agricultural sciences . . . including agribusiness, food 
production, distribution, and retailing, the clothing 
industries, energy and renewable fuels, and farming marketing, 
finance, and distribution.''
    And then finally, on page 5, it says: ``To provide 
scholarships to African-American students seeking careers in 
the food and agricultural sciences.''
    So I wanted to make sure as we go forward, and Mr. 
Chairman, as I mentioned, we have two White constituents, 
fellow Members of Congress who are graduates of this 
institution. It is very important as we go forward that the 
record reflects that the 1890s and this bill is about equal 
opportunity for all, White, Latino, any and everybody that will 
come would have an opportunity.
    However, we know of the shortage and the low number of 
careers in this burgeoning area of agriculture and 
agribusinesses that the African American kids are not allowed 
to get into. And that is where we referenced that, so that we 
continue to strive for equality. Thank you.
    The Chairman. Well, I thank the gentleman. I thank the 
three witnesses for being with us today. I appreciate your 
patience with me trying to maintain the clock, but everybody 
has a lot to say on these important issues. And those who 
didn't get to testify, thank you for making the trip to 
Washington to be in support of this legislation.
    As Mr. Peterson mentioned, this is our last hearing. This 
session of Congress will adjourn sine die shortly. And so we 
will need to start all of this exercise over again, as is the 
requirement of the House Rules that we form a new Congress 
altogether in the 115th Congress.
    But I want to thank my fellow Members for the good work we 
have had. Hopefully, we haven't worn you out with too many 
hearings.
    We anticipate in the 115th Congress we will have to take up 
the CFTC reauthorization. We will have to take up, of course, 
the reauthorization of the farm bill, and we need also at the 
front, harvest all of that great work that Jackie Walorski and 
James P. McGovern did on the SNAP 2 year review. That report is 
being released this morning. And so we have a lot of work to do 
in the next Congress. David, I look forward to working with you 
on that.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional materials and supplemental written responses to any 
questions posed by a Member. If there are things that you 
prefer to have placed in the record that you didn't get to talk 
about because we ran out of time with the clock, please submit 
those to us. We will put those in the official record of this 
hearing and then it will be a part of the work that goes 
forward when this bill is, I suspect, reintroduced in the 115th 
Congress.
    With that, the Committee on Agriculture hearing is 
adjourned.
    [Whereupon, at 12:04 p.m., the Committee was adjourned.]

                                  [all]
</pre></body></html>
